<html>
<title> - MASS INCARCERATION IN THE UNITED STATES: AT WHAT COST?</title>
<body><pre>[Senate Hearing 110-299]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-299
 
         MASS INCARCERATION IN THE UNITED STATES: AT WHAT COST? 

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2007

                               __________

          Printed for the use of the Joint Economic Committee

                     U.S. GOVERNMENT PRINTING OFFICE

39-645 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001








































                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Charles E. Schumer, New York,        Carolyn B. Maloney, New York, Vice 
    Chairman                             Chair
Edward M. Kennedy, Massachusetts     Maurice D. Hinchey, New York
Jeff Bingaman, New Mexico            Baron P. Hill, Indiana
Amy Klobuchar, Minnesota             Loretta Sanchez, California
Robert P. Casey, Jr., Pennsylvania   Elijah E. Cummings, Maryland
Jim Webb, Virginia                   Lloyd Doggett, Texas
Sam Brownback, Kansas                Jim Saxton, New Jersey, Ranking 
John E. Sununu, New Hampshire            Republican
Jim DeMint, South Carolina           Kevin Brady, Texas
Robert F. Bennett, Utah              Phil English, Pennsylvania
                                     Ron Paul, Texas

                  Michael Laskawy, Executive Director
            Christopher J. Frenze, Republican Staff Director























                            C O N T E N T S

                              ----------                              

                      Opening Statement of Members

Statement of Hon. Jim Webb, a U.S. Senator from Virginia.........     1
Statement of Hon. Carolyn B. Maloney, Vice Chair, a U.S. 
  Representative from New York...................................     3
Statement of Hon. Sam Brownback, a U.S. Senator from Kansas......     5
Statement of Hon. Robert C. ``Bobby'' Scott, a U.S. 
  Representative from Virginia...................................     6

                               Witnesses

Statement of Dr. Glenn C. Loury, Professor of Economics and 
  Social Services, Brown University..............................    11
Statement of Dr. Bruce Western, Director, Inequality and Social 
  Policy Program, Kennedy School of Government, Harvard 
  University.....................................................    15
Statement of Alphonso Albert, Executive Director, Second Chances.    17
Statement of Dr. Michael P. Jacobson, Director, Vera Institute of 
  Justice........................................................    19
Statement of Pat Nolan, Vice President, Prison Fellowship........    22

                       Submissions for the Record

Prepared statement of Senator Jim Webb...........................    41
Prepared statement of Carolyn Maloney, Vice Chair................    43
Prepared statement of Senator Sam Brownback......................    44
Prepared statement of Congressman Robert C. ``Bobby'' Scott, 
  Chairman for the Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    45
Prepared statement of Dr. Glenn C. Loury, Merton P. Stolz 
  Professor of the Social Sciences, Department of Economics, 
  Brown University...............................................    47
    Charts:
        Violent crime rates......................................    47
        Direct expenditure by criminal justice function, 1982-
          2004...................................................    48
        Figure 2.2, Drug offenses and arrest rate ratio..........    51
        Figure 2.3, High school seniors reporting drug use.......    51
        Winning the war? Drug prices, emergency treatment and 
          incarceration rates: 1980-2000.........................    52
        Changes in the spatial concentration of incarceration in 
          New York City: 1985-1996...............................    53
        Marijuana possession arrests in New York City in three 
          decades................................................    55
        New York City marijuana possession arrests of Whites, 
          Hispanics and Blacks in two decades....................    56
    Responses by Dr. Glenn C. Loury to Questions from 
      Representative Robert C. ``Bobby'' Scott...................    54
Prepared statement of Bruce Western, Director, Department of 
  Sociology, Harvard University..................................    57
    Charts:
        Figure 1. Employment-to-population ratios for African 
          American men without college education.................    58
        Men with prison records by age 30-34.....................    62
        Prevalence of life events for men b. 1965-1969...........    63
        Pay and employment among ex-prisoners (NLSY).............    64
    Responses by Dr. Bruce Western to Questions from 
      Representative Robert C. ``Bobby'' Scott...................    60
Prepared statement of Alphonso Albert, Executive Director, Second 
  Chances........................................................    65
    Responses by Alphonso Albert to Questions from Representative 
      Robert C. ``Bobby'' Scott..................................    65
Prepared statement of Michael Jacobson, Director, Vera Institute 
  of Justice.....................................................    66
    Responses by Dr. Michael P. Jacobson to Questions from 
      Representative Robert C. ``Bobby'' Scott...................    67
Prepared statement of Pat Nolan, Vice President, Prison 
  Fellowship.....................................................    68
Prepared statement of Congresswoman Sheila Jackson-Lee, of Texas.    73


         MASS INCARCERATION IN THE UNITED STATES: AT WHAT COST?

                              ----------                              


                       THURSDAY, OCTOBER 4, 2007

             Congress of the United States,
                          Joint Economic Committee,
                                                     Washington, DC
    The Committee met at 10:04 a.m. in room 216 of the Hart 
Senate Office Building, the Honorable Jim Webb and Vice Chair 
Carolyn B. Maloney, presiding.
    Senators present: Webb, Casey, and Brownback.
    Representatives present: Maloney, English, Scott, and 
Hinchey.
    Staff present: Christina Baumgardner, Stephanie Dreyer, 
Chris Frenze, Nan Gibson, Gretta Goodwin, Rachel Greszler, 
Colleen Healy, Aaron Kabaker, Israel Klein, Michael Laskawy, 
Zachary Luck, Robert O'Quinn, Jeff Schlagenhauf, and Robert 
Weingart.

    OPENING STATEMENT OF HON. JIM WEBB, A U.S. SENATOR FROM 
                            VIRGINIA

    Senator Webb [presiding]. The Committee will come to order. 
I would like to thank Chairman Schumer for agreeing to hold 
this important hearing, and for allowing me the opportunity to 
chair it.
    I would also like to thank our witnesses for appearing 
today and, following my remarks, I would ask Vice Chair Maloney 
and Senator Brownback to make some opening remarks. We also 
have Congressman Bobby Scott over from the House side who has 
worked long and hard on these issues and would like to say a 
few words. Then if Congressman English would like to say 
something, we will get an opening statement from him.
    Then we will turn this over for up to 8-minute summaries of 
statements from the panel, and then we will go into questions.
    Over the course of the period from the mid-1970s until 
today, the United States has embarked on one of the largest 
public policy experiments in our history.
    Yet this experiment remains shockingly absent from the 
public debate. The United States now imprisons a higher 
percentage of its citizens than any other country in the world.
    In the name of getting tough on crime, there are now 2.1 
million Americans in Federal, State, and local prisons and 
jails, more people than the populations of New Mexico, West 
Virginia, or several other States.
    Compared to our democratic advanced-market economy 
counterparts, the United States has more people in prison by 
several orders of magnitude. All told, more than 7 million 
Americans are under some form of corrections supervision, 
including probation and parole.
    America's incarceration rate raises several serious 
questions. These include: The correlation between mass 
imprisonment and crime rates; the impact of incarceration on 
minority communities and women; the economic costs of the 
prison system; criminal justice policy; and transitioning ex-
offenders back into their communities and into productive 
employment.
    Equally important, the prison system today calls into 
question the effects on our society at a broad level. Winston 
Churchill noted in 1910, ``The mood and temper of the public in 
regard to the treatment of crime and criminals is one of the 
most unfailing tests of the civilization of any country.''
    With the world's largest prison population, our prisons 
test the limits of our democracy and push the boundaries of our 
moral identity.
    The growth in the prison population is only nominally 
related to crime rates. Just last week, in The Washington Post, 
the Deputy Director of the Bureau of Justice Statistics stated, 
and I quote, ``The growth in the incarceration rate wasn't 
really about increased crime but how we choose to respond to 
crime.''
    The steep increase in the number of people in prison, is 
driven, according to most experts, by changes in drug policy 
and tougher sentencing, and not necessarily an increase in 
crime.
    Also, the composition of prison admissions has shifted 
towards less serious offenses--parole violations and drug 
offenses. Nearly 6 in 10 persons in State prisons for a drug 
offense have no history of violence or significant selling 
activity.
    In 2005, four out of five drug arrests were for possession 
and only one out of five were for sales. Is incarcerating low-
level drug offenders working, particularly given recidivism 
rates?
    The racial composition of America's prisons is alarming. 
Although African Americans constitute 14 percent of regular 
drug users, they are 37 percent of those arrested for drug 
offenses and 56 percent of persons in State prisons for drug 
crimes.
    African Americans serve nearly as much time in Federal 
prisons for drug offenses as Whites do for violent crimes.
    A Black male who does not finish high school now has a 60-
percent chance of going to jail. One who has finished high 
school has a 30-percent chance.
    We have reached a point where the principal nexus between 
young African American men in our society is increasingly 
becoming the criminal justice system, and we are spending 
enormous amounts of money to maintain this system.
    The combined expenditures of local, State, and Federal 
governments for law enforcement and corrections personnel now 
total over $200 billion.
    Prison construction and operations has become a sought 
after, if uncertain, tool of economic growth for rural 
communities.
    Are there ways to spend less money, enhance public safety, 
and make a fairer prison system?
    Having such a large prison population also has significant 
employment and productivity implications. The economic output 
of prisoners is mostly lost to society while they are in 
prison. These negative productivity effects continue in many 
cases after release.
    As we have gotten tough on crime, we have given up on 
rehabilitating offenders. And we have created additional 
barriers to re-entry with invisible punishments. These include: 
ineligibility for government benefits, such as housing, public 
assistance, or student loans. It is no longer simply possible 
to pay one's debt to society.
    We all want to keep bad people off our streets. We want to 
break the back of gangs. We want to cut down on violent 
behavior. But there is something else going on when we are 
locking up such a high percentage of our people, marking them 
at an early age, and, in many cases, eliminating their chances 
for productive life as full citizens.
    It will take years of energy to address these problems, but 
I am committed to working toward a solution that is both 
responsive to our needs for law and order and fairer to those 
ensnared by this system.
    I welcome the thoughts of our witnesses today regarding 
these important topics, and also the beginning of a new 
national dialogue to address these enormous policy issues.
    [The prepared statement of Senator Webb appears in the 
Submissions for the Record on page 41.]
    With that, I would call on Vice Chair Maloney.

         OPENING STATEMENT OF HON. CAROLYN B. MALONEY,
        VICE CHAIR, A U.S. REPRESENTATIVE FROM NEW YORK

    Vice Chair Maloney. Thank you very much. First of all, I 
join you in thanking Chairman Schumer for holding this hearing 
to examine the economic, political, and social costs of 
incarceration. I also thank Senator Webb for chairing, and all 
of the panelists and all of my colleagues here today.
    The United States has the highest incarceration rates in 
the world with more than 2 million Americans currently in jails 
or prisons.
    Clearly, imprisonment benefits society and is an important 
public safety measure, but faced with an unprecedented increase 
in incarceration we must ask ourselves whether we are striking 
the right balance between the costs and benefits of 
imprisonment.
    Putting more resources into creating economic opportunities 
that provide alternatives to crime would pay dividends in 
reducing crime and incarceration, while also strengthening 
families and communities.
    We all know that, in the long run, crime does not pay, but 
it sure is costly. The average annual cost of incarceration for 
one Federal prisoner exceeds $20,000 a year, far more than the 
average annual cost of $3,700 for participating in a youth 
program for a year; or $6,000 for one of our young people to 
attend job training; or the $13,000 that we would pay for 
tuition at public universities.
    There is absolutely no question that crime rates have 
dropped in the United States over the past decade. Researchers 
agree that the increase in incarceration rates have been driven 
by tougher sentences for repeat offenders and drug offenders, 
mandatory minimums, and a more punitive approach to post-
release supervision, rather than an increase in crime.
    The racial dimension of incarceration is inescapable. Half 
of our prison population is African American, yet they 
represent just 13 percent of the population of our country as a 
whole.
    It has become a sad truth that a Black man in his late 
twenties without a high school diploma is more likely to be in 
jail than to be working. The effect on Black communities has 
been devastating.
    As noted, Harvard sociologist Orlando Patterson wrote in 
the New York Times recently: one in three African American 
males in their thirties now has a prison record. He somberly 
noted, and I quote, ``These numbers and rates are greater than 
anything achieved at the height of the Jim Crow era,'' end 
quote.
    Women are typically convicted of nonviolent offenses. Most 
women who enter the criminal justice system have experienced 
physical or sexual abuse and many have physical or mental 
health problems.
    These inmates may actually benefit from alternatives to 
imprisonment such as suspended sentences coupled with extensive 
counseling. When mothers are incarcerated their children may be 
placed in foster care or with other family members who then 
need financial assistance to provide for the children.
    Moreover, the removal of a significant family member can 
affect the healthy development of children. The Catholic 
Charities Diocese in my district, located in Queens and in 
Brooklyn, operate a week-long summer camp that provides 
opportunities for incarcerated mothers to have quality time 
with their children.
    Such programs serve as a means to maintain family bonds and 
possibly provide a smoother transition and resumption of 
parental responsibilities upon release.
    If this program shows success, it could serve as a model 
for the Nation. Providing employment and training assistance 
for ex-offenders, is critical to reducing barriers to 
employment, and it benefits families and benefits society.
    I support the Second Chance Act of 2007, which provides 
grants for re-entry programs that provide mentoring, academic, 
and vocational education, employment assistance, and substance 
abuse treatment for ex-offenders.
    I look forward to hearing from our distinguished panelists 
on how best to protect public safety, while addressing the many 
costs of imprisonment. I might add, the way that we release men 
and women from prison, with absolutely no assistance, leads, in 
many cases, to them becoming second offenders, because they 
have no place to go, they have no money, and, in many cases, 
have no help.
    So this is an important hearing. I congratulate the Senator 
for leading us to this moment today. Thank you.
    [The prepared statement of Vice Chair Maloney appears in 
the Submissions for the Record on page 43.]
    Senator Webb. I thank the Vice Chair. I have been asked to 
announce that there is a blue backpack in the back of the room. 
Has it been claimed? Whoever--OK, thank you. You have helped us 
move the hearing along without an evacuation of the room.
    [Laughter.]
    Senator Webb. Senator Brownback, we are very grateful for 
your coming today, and I know you have done a lot of work in 
this area. You now have the floor.

  STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing and the comments by Vice 
Chair Maloney and her thoughts on this, as well.
    I have worked on this a lot. I have spent time in prison. I 
may be the only one in here that has spent a night in Louisiana 
in a State prison there, and one in my State.
    I did not have a record, but I went in and stayed, because 
I was interested in the programs that were taking place in 
these places, because the numbers are stark.
    They are terrible, and they are quite an indictment of our 
society. But I was looking for something that worked, and what 
I found, are some very innovative programs around the country, 
that particularly target the recidivism rates, which, to me, 
that is one of the key things we can work on, is getting that 
recidivism rate down.
    Right now, the recidivism rate in the country, is roughly 
about two-thirds; two-thirds of the people that go into State, 
local, or Federal prisons, in this country, will go back.
    And their family members are five times more likely to go 
into prison, so it seems like--as somebody raised on a farm, 
you hoe where the weeds are. This is where our problem is, and 
let's go in and let's deal in those particular areas.
    And that is the targeted focus of the Second Chance Act, a 
series of grants for innovative programs that will cut 
recidivism rates in half in 5 years.
    And it is eclectic, it says, you know, whatever you have 
got that is working--great, but if it does not work, we are not 
going to continue it.
    It is measurable, recidivism rates cut in half in 5 years, 
and I think that is not soft on crime; I think that is smart on 
crime.
    And it is something that we need to do, and it is also 
humanitarian in recognizing that every person is a beautiful, 
unique soul, a child of a living god, regardless of whether 
they are in prison or not.
    And it tries to treat the individual as a person. I have 
had a guy sometime back who said, we get into problems when we 
look at people as problems and not as people. That includes 
somebody that has committed a crime, even very difficult and 
bad crimes.
    So I think we have got some things we need to change here, 
how we look at people in prison, what we do on bringing them 
out of prison.
    I think we have got a good model in the Second Chance Act. 
It has passed the Judiciary Committee, it is a bipartisan bill. 
It is ready for floor action, and I know that Chairman Webb is 
a co-sponsor of the bill, as well.
    I would hope this would be something that this Congress 
could get done. I think we can get a signature on it from 
President Bush, and really target this particular area of this 
problem.
    It does not fix the whole thing, but it does get at a 
particularly key area. It is something that can work and 
support these innovative programs.
    I look forward to the panelists' presentations, and I 
particularly appreciate Pat Nolan coming here on short notice. 
They have worked on these topics a lot, and I hope we can move 
forward with this topic and get something actually 
accomplished. Thank you, Mr. Chairman.
    [The prepared statement of Senator Brownback appears in the 
Submissions for the Record on page 44.]
    Senator Webb. Thank you very much, Senator Brownback. 
Congressman Scott, who also has worked many, many years on 
this, we appreciate you coming over to be part of the hearing 
this morning, and you may feel free to make a statement.

          STATEMENT OF HON. ROBERT C. ``BOBBY'' SCOTT,
              A U.S. REPRESENTATIVE FROM VIRGINIA

    Representative Scott. Thank you, Senator Webb. I want to 
thank Senator Schumer and Vice Chair Maloney for the 
opportunity to be with you today as we discuss the very 
important subject of the costs of mass incarceration we have 
seen in the United States.
    Today, the United States is the world's leading 
incarcerator, by far, with an average incarceration rate of 
over seven times the international average.
    The average incarceration rate in the rest of the world, is 
somewhere around 100 per 100,000, and the rate in the United 
States is over 700 per 100,000. In some inner city communities, 
the rate goes above 4,000 per 100,000.
    Russia has the next closest rate of incarceration, with 611 
per hundred thousand, and everybody else is much lower. For 
example, in India, the world's largest democracy, the rate is 
30 per 100,000. In China, the world's largest country, by 
population, the rate is 118 per 100,000.
    We did not get here overnight. I have learned that when it 
comes to crime policy, we have a choice: You can reduce crime 
or you can play politics.
    And the politics of crime is the get-tough approach, such 
as more life with parole, mandatory minimum sentences, treating 
more juveniles as adults. With this approach, no matter how 
tough we got last year, we get tougher this year.
    We have been putting more and more people in jail, and in 
the last 30 years, we have gone from approximately 300,000 
persons incarcerated in the United States in 1970 to over 2 
million today. The annual costs have gone up to $65 billion a 
year.
    And the United States has some of the world's most severe 
punishments for crime, including for juveniles. For more than 
2,200 juveniles sentenced in the world to life without parole, 
all but 12 are in the United States.
    Research and analysis, as well as common sense, tells us 
that no matter how tough you are on people who you prosecute 
for crimes today, unless you are addressing the reasons they 
got to the point to commit crimes in the first place, the next 
wave developing in the system will simply replace those that 
you take out. And the crime continues.
    This is not to say that we should not prosecute crimes, or 
that imprisonment has no impact. The problem is that you reach 
a point of diminishing returns, with no appreciable benefit.
    In fact, you run the risk of diminishing returns to 
actually being counterproductive. For example, when you have so 
many people in a community with criminal records, that the 
criminal record no longer has a stigma or deterrent effect, you 
have lost your deterrent effect of the criminal justice system, 
altogether.
    The corollary cost of mass incarceration resulting from the 
tough-on-crime politics unfortunately falls, as we have heard, 
disproportionately among minorities, particularly Black and 
Hispanic youth.
    The sad reality is that many children born in minority 
communities today are, from birth, without appropriate 
intervention, on what is called the cradle-to-prison pipeline.
    When you see how simple it is to get them on a cradle-to-
college pipeline, it is tragic and much more costly to society, 
economically and socially, if we do not do so.
    There are other costs to consider when crime rates are 
high, such as the high medical costs associated with gun 
crimes. One study suggested that actuarial science estimated 
that the annual cost of gun violence in the United States is 
approximately $100 billion.
    Fortunately, we have a choice. All credible research and 
evidence shows that a continuum of evidence-based programs for 
youth identified as being at risk of involvement in delinquent 
behavior, and those already involved, will not only put kids on 
an appropriate pipeline towards college, rather than prison, 
but it will also save more money than it costs.
    Washington State did an extensive study that showed that 
evidence-based prevention and rehabilitation programs, such as 
drug treatment, reduce crime and save money, when compared to 
waiting for crimes to be committed and then sending offenders 
to prison.
    Washington State adopted many of the initiatives in that 
study and, consequently, avoided having to build a new prison 
as a result. There are huge opportunity costs in not doing what 
the research and evidence tells us will reduce crime.
    To illustrate, let's examine the impact in Virginia of the 
lost opportunities associated with the get-tough crime policy 
called abolish parole. Rather than invest in proven crime-
reduction measures that work, Virginia chose to go down the 
costly and wasteful path of abolishing parole.
    The proponents suggested that even if it worked perfectly, 
the reduction in violent crime would be a statistically 
insignificant 3 percent, and even that would be without 
considering the counterproductive effects of no parole, such as 
the fact that you cannot hold hardened criminals longer, and 
the loss of incentive for prisoners to get an education and job 
training while in prison.
    They estimated that the cost of abolishing parole would be 
$2.2 billion to build new prisons, and about a billion-a-year 
operating costs.
    Now, let's just do a little quick, back-of-the-envelope 
arithmetic of that kind of budget. There are 11 congressional 
districts in Virginia, so that is about $200 million for 
construction and $90 for operations in each congressional 
district of about 600,000.
    So, for a city of 100,000, we are talking $30 million in 
construction and $15 million in operating. Let's see what you 
could have done with that.
    For $30 million, you could have built ten $3 million Boys 
and Girls Clubs or family resource centers. With the operating 
expenses, you could have run those clubs and family resource 
centers at $600,000 a year, and that would be $6 million.
    You could have a thousand summer jobs and that would be 
another million; a thousand summer camp scholarships at $1,000 
and that would be another million; 4,000 after-school programs 
at $250, another million; 2,000 college scholarships at $2,000, 
and that is $4 million; services for 200 juveniles at $10,000 a 
year, $2 million. You could have done all of that, or you could 
codify a slogan without even knowing if you are reducing crime 
or even increasing crime.
    Of course, we have so many people locked up that we are 
seeing, a large number returning to the communities, in most 
cases, no better than when they started out.
    This year, we have 650,000 people being released from State 
and Federal prisons, along with 9 million leaving local jails. 
The recidivism rate of 67 percent has to be dealt with.
    Over one-third of the jailed inmates have physical or 
mental disabilities, many had drug problems, and with no 
parole, no good conduct credits, and other self development 
initiatives being eliminated, we have limited vocational and 
other developmental programs while in prison.
    All of that, along with the disqualifications that result 
from having a felony record, make it easy to see why the 
recidivism rate is so high.
    One program that has been hugely successful is the Federal 
Prison Industries, but unfortunately, that program has just 
been undermined with the provision in the Senate Defense 
Authorization bill.
    The Second Chance Act now pending before Congress will 
provide a host of evidence-based approaches designed to reduce 
the high rate of recidivism now occurring; and if we are going 
to continue to send more and more people to prison with longer 
and longer sentences, we should do as much as we reasonably can 
to ensure that when they return from prison, they do not turn 
around and go back to prison because of new crimes.
    The primary reason for doing so is not to benefit the 
offenders, although it does; the primary reason for doing so is 
that it better assures that all of us and other members of the 
public will be less likely to be victims of crime due to 
recidivism, and we will also save the high costs of law 
enforcement and incarceration.
    Now, Mr. Chairman, I thank you for holding this very 
important hearing and for inviting me to sit with you today.
    [The prepared statement of Representative Robert C. 
``Bobby'' Scott appears in the Submissions for the Record on 
page 45.]
    Senator Webb. Thank you very much, Congressman Scott. Are 
there any other Committee members who wish to make an opening 
statement before we go to the witnesses? Senator Casey?
    Senator Casey. Mr. Chairman, I want to thank you for 
calling this hearing, and I want the audience to know, as a 
first-year Senator, how thrilling it is to be able to call Jim 
Webb, Mr. Chairman.
    [Laughter.]
    Senator Webb. There is hope.
    [Laughter.]
    Senator Casey. And, Chairwoman Maloney, thank you for your 
work on this issue and so many others.
    Vice Chair Maloney. Thank you.
    Senator Casey. I do not have a long statement, but I do 
want to say that the problem that we are here to discuss today 
and the testimony we will hear from this distinguished panel, 
as we all know, is both a human tragedy and a fiscal nightmare, 
and we are well aware of that.
    But I think it is important that we do our best today to 
listen and to learn, and I am honored to be in the presence of 
so many people who have labored in this vineyard for a long 
time. We are grateful for the work that is already been done.
    But as you can see from this panel, from the Members of 
Congress who are here, as well as others, that this is a 
bipartisan challenge. Neither party has a corner on the market, 
so to speak, of knowledge and wisdom and insight and 
legislation.
    Both parties, I think, are deeply concerned about this. I 
have to say that one of the reasons that we're in this 
demographic and fiscal challenge, and why so many lives have 
been ruined, is that we failed, I think, as a country, and both 
parties have failed to invest in children in the dawn of their 
lives.
    That's not the whole reason, that is not the only reason we 
have this problem, but that is a big part of the problem.
    I have a bill on pre-kindergarten education and Chairwoman 
Maloney has similar legislation in the House, and others have 
worked on this, but I think that today, it is not enough to 
curse the darkness of that failure to invest.
    We could do that all day long, and that is not enough. We 
have to be concerned about the children and the young adults 
who did not get the benefit of those investments. We have to 
deal with them.
    We cannot just talk about what should have happened to 
them; we have got to deal with the challenges in their lives. 
So, I know that this hearing today will bring light to that 
darkness, and will further amplify and develop solutions to 
this problem, so I thank the Chairman, and I am happy to be 
here today.
    Senator Webb. Thank you very much, Senator Casey. Any 
others? Congressman Hinchey?
    Representative Hinchey. Senator Webb, I just want to 
briefly express my appreciation to you for drawing our 
attention to this very important issue.
    And it really is something that needs to be dealt with. It 
is another example, I think, of kind of a self-inflicted wound 
that we have put on our society.
    And we have done so until fairly recently. Up until the 
mid-1970s, the incarceration rate in the United States, was 
fairly even with the rest of the world and we were not putting 
ourselves up front in any way.
    But policies changed back then, and over the course of the 
last 35 years, the number of people that we have locked up in 
prisons and jails across the country has gone up by more than 
700 percent.
    So this is an issue that really needs to be dealt with, and 
it is an issue that we can deal with. This Congress must 
address it.
    It is, in part, I think, an example of how capitalism can 
be used badly to deal with issues in ways that just make those 
issues even worse to confront.
    So Senator, I deeply appreciate your attention to this, and 
the opportunity you have given us to learn more about it from 
this distinguished panel.
    And the incentive that, hopefully, this will provide for us 
to make appropriate corrections.
    Senator Webb. Thank you very much. Congressman English, did 
you wish to make a statement?
    Representative English. Let me just say, Mr. Chairman, that 
I am delighted we are doing this hearing. It is immensely 
timely.
    I will submit my remarks for the record, with the idea that 
we can hopefully proceed now to our much-awaited testimony from 
this excellent panel.
    Senator Webb. Thank you very much. We do have a very 
distinguished panel. We appreciate all of you taking your time 
to come here today. I know that our staff worked really hard to 
get the right group of people who can help illuminate this 
issue.
    We are starting from our left to the right with Professor 
Glenn Loury, who is the Merton P. Stoltz Professor of Social 
Sciences at the department of economics at Brown University. He 
has taught previously at Boston, Harvard, and Northwestern 
Universities and the University of Michigan.
    He is a distinguished academic economist who has 
contributed to a wide variety of areas in applied microeconomic 
theory, and has written extensively on racial inequality.
    Professor Bruce Western, is the director of 
multidisciplinary programs in inequality and social policy at 
the Kennedy School of Government. He taught at Princeton from 
1993 to 2007. His work has focused on the role of incarceration 
in social and economic inequality in American society. He is 
the author of ``Punishment and Inequality in America: A Study 
of the Growth and Social Impact of the American Penal System.''
    Alphonso Albert is the director of Second Chances in 
Norfolk, Virginia, a program designed to provide comprehensive 
support services that lead to full-time employment and social 
stability for those individuals impacted by the stigma of being 
labeled as ex-offenders.
    Prior to working with Second Chances, Mr. Albert served as 
the assistant director of business liaison for the city of 
Norfolk's enterprise community initiative, Norfolk Works, 
Incorporated.
    Dr. Michael Jacobson is the director of the Vera Institute 
of Justice. He is the author of ``Downsizing Prisons: How to 
Reduce Crime and End Mass Incarceration.''
    Prior to joining Vera, he was a professor at the City 
University of New York Graduate Center and the John Jay College 
of Criminal Justice. He served as New York City's correction 
commissioner, probation commissioner, and deputy budget 
director.
    Pat Nolan is vice president of Prison Fellowship, where he 
focuses on efforts to ensure that offenders are better prepared 
to live healthy, productive, law-abiding lives on their 
release. He served 15 years in the California State Assembly, 
four of them as the Assembly Republican Leader.
    Mr. Nolan has appeared before Congress to testify on 
matters such as prison work programs, juvenile justice, and 
religious freedom.
    We welcome all of the witnesses. Normally, this is a 5-
minute round. I think, with the depth of knowledge of the 
witnesses, I am prepared to go to 8 minutes, if any witness 
wants to go to 8 minutes.
    Dr. Loury, welcome. You can begin.

  STATEMENT OF DR. GLENN C. LOURY, PROFESSOR OF ECONOMICS AND 
               SOCIAL SCIENCES, BROWN UNIVERSITY

    Dr. Loury. Thank you. Mr. Chairman, Madam Vice Chairwoman, 
and distinguished Members, I thank you for the opportunity to 
address this vital issue before your Committee.
    There are six main points that I wish to make with this 
testimony about the advent of mass incarceration as a crime 
control policy in the United States:
    First, let me reiterate what has already been said, which 
is that over the past four decades, we have witnessed an 
historic expansion of coercive State power deployed internally 
on a massive scale.
    As a result of this policy, the American prison system has 
grown into a leviathan, unmatched in human history. Never has a 
supposedly free country denied basic liberty to so many of its 
citizens.
    We imprison, as has been said, at a far higher rate than 
any other industrial democracy in the world; we imprison at a 
higher rate than Russia, China, and vastly more than any of the 
countries in Europe.
    Second, it is my considered opinion that this high level of 
imprisonment, is not any longer, if ever it was, a rational 
response to high levels of crime, rather, our mass 
incarceration policy is an historical inheritance bequeathed to 
us by wave after wave of crime fighting at the State and 
Federal levels over the past 35 years.
    This policy response, I firmly believe, has now become 
counterproductive. The so-called War on Drugs, about which I 
will have a little bit more to say at the end of this 
testimony, is a leading example of one such misconceived policy 
initiative that now has us in its grip.
    Thirdly, I wish to point out that institutional 
arrangements for dealing with criminal offenders in the United 
States, evolved to serve expressive as well as instrumental 
ends. This is perhaps not surprising, but it is also not an 
entirely healthy development.
    We have wanted to send message to the criminals and to the 
law-abiding public alike, and we have done so with a vengeance.
    In the process, we have, in effect, answered the question 
of who is to blame for the maladies which beset our troubled 
civilization? That is, we have, in effect, constructed a 
national narrative; we have created scapegoats; we have 
indulged our need to feel virtuous.
    We have assuaged our fears. We have met the enemy, and the 
enemy is them, the violent, predatory, immoral, irredeemable 
thugs.
    I believe that this narrative, which supports and 
encourages our embrace of the policy of mass incarceration, is, 
itself, a sociologically naive and morally superficial view 
about how to deal with social problems at the bottom rungs of 
American society.
    Fourth, I feel constrained to observe that these people who 
have offended, as Senator Brownback said in his opening 
remarks, these people who have offended against our laws, are, 
nevertheless, human beings, and while they may deserve 
punishment, imprisoning them is something that we, the people 
of the United States of America, are doing.
    Indeed, punishment is one of the most politically salient 
things that you can do in a democracy. The State is forcibly 
depriving citizens of their liberty.
    Precisely how we do such a thing is a measure of our 
national character. And while this practice is necessary for 
the maintenance of order in society, it should always be 
undertaken humanely and in a spirit of hope, in a manner that 
comports with our deepest political and spiritual values.
    We ought never to lose sight of the essential humanity of 
those whom we punish and of the humanity of those to whom 
offenders are connected via the intimate ties of social and 
psychic affiliation.
    Unfortunately, we have not always lived up to this high 
standard.
    Fifth, I must call attention to, again, as has been noted, 
a huge gap between the race in the incidence of punishment 
which exists in our country.
    Black Americans and Hispanics, together, account for about 
one-quarter of the overall national population, but constitute 
about two-thirds of the State and Federal prison populations.
    The extent of racial disparity in imprisonment rates, is 
greater than in any other area of American life. The scandalous 
fact of the matter is that the primary contact between poorly 
educated Black American men of a certain age, and the American 
state, is via the police and the penal apparatus.
    The coercive aspect of government is the most salient 
feature of their experience of the public sector. My colleague 
sitting here, Bruce Western, has estimated, as he will say, I 
suppose, in greater detail, that some 59 percent of Black male 
high school dropouts born in the late 1960s, had been sent to 
prison on a felony offense at least once before they reached 
the age of 35.
    For these men and the families and communities with which 
they are associated, the adverse effects of incarceration will 
extend well beyond their stay behind bars.
    A fundamental point to bear in mind is that the experience 
of prison feeds back to affect the life course of those 
incarcerated, in an adverse manner. The vast majority of 
inmates do return eventually to society.
    The evidence that prison has adversely affected their 
subsequent life chances is considerable and impressive.
    Now, I invite you to consider the nearly 60 percent of 
Black male high school dropouts born in the late 1960s, who 
will have been in prison before their 40th year. For these men, 
their links to family have been disrupted.
    Their subsequent work lives will be diminished. Their 
voting rights may be curtailed or even revoked. They will 
suffer, quite literally, civic excommunication from American 
democracy.
    It is no exaggeration to say that, given our zeal for 
social discipline, these men will be consigned to a permanent, 
non-White male nether caste. Yet, since these men, whatever 
their shortcomings, have emotional and sexual and family needs, 
including the need to be fathers and husbands, we will have 
created a biopolitical situation where the children of this 
nether caste are likely, themselves, to join a new generation 
of untouchables. I understand that this is harsh language, but 
I think it is a very harsh reality that I am describing.
    In the interest of time, let me curtail reading my formal 
remarks here, and just say, finally, that I want to make a few 
observations about the War on Drugs.
    This policy has not been successful, in my view, and it has 
a hugely disparate, adverse impact on the African American 
community. Consider the table, which is in your handout. It is 
actually taken from Professor Western's book, giving a chart 
showing drug offenses and arrest ratios over the period from 
1970 to 2000.
    What the chart shows is that in the 1970s, Blacks were 
arrested for drug offenses at twice the rate of Whites, and by 
the late 1980s, that ratio had grown to four times as great.
    [The referenced chart appears in the Submissions for the 
Record on page 51.]
    However, as another chart in your handout, the figure 
labeled ``High School Seniors Reporting Drug Use,'' also drawn 
from Professor Western's work, shows Blacks do not use drugs at 
any higher rate than Whites. Black high school seniors reported 
using drugs at a slightly lower rate than did Whites.
    [The referenced chart appears in the Submissions for the 
Record on page 51.]
    So we have a situation where, to deal with the problem, we 
are punishing people, but the problem has been generated by 
faults and failures in our society that are very broad in terms 
of class and race, that do not fall with any one group.
    It can be no surprise to us that if there is going to be an 
open-air drug market in a city, it is going to take place by 
the tracks, near the docks, in the dark corner, in places where 
people can be anonymous.
    And it is going to be manned and womanned by people whose 
alternative opportunities are very scant, who do not have 
education and who do not have another way of making money. That 
can come as no surprise to us.
    But that market would not be there in the first place if it 
were not for ordinary Americans, your constituents, my 
relatives, people like you and I, who want to engage in the 
consumption of these substances.
    When we punish the suppliers, we weight the cost of this 
social malady wholly on one segment of a transaction that takes 
two to tango. And the racial inequality of that is really quite 
stark.
    Let me close by giving one concrete illustration of what I 
am talking about. I believe there is a floor chart that gives 
statistics on marijuana arrests in New York City over the three 
decades of 1977 through 2006.
    If you could display it, please, what it shows is that--
this is just one city. It is an important city, of course, and 
we have good data for New York City, so it is possible to 
examine this empirically, but it is not uncharacteristic of 
what is going on around the country.
    [The referenced chart appears in the Submissions to the 
Record on page 55.]
    We changed our policy in the late 1980s and early 1990s, 
and in New York City, the crackdown on marijuana possession, 
was very severe. As you can see, in that decade from 1997 to 
2006, 10 times as many people are being arrested for marijuana 
possession in the city as had been in the decade prior.
    If you could show the next chart, it gives a breakdown of 
those arrests by race in New York City. What you will see for 
the city there is just what I had been saying about the 
national scene, which is that while the intensity of marijuana 
arrests increases dramatically, the burden of those arrests is 
borne vastly disproportionately by Black and Latino residents 
of the city, relative to Whites.
    [The referenced chart appears in the Submissions to the 
Record on page 56.]
    There is no reason to suppose that Blacks in New York City 
are consuming marijuana or any other drug at any higher a rate 
relative to Whites than is the national population, and we know 
that there is really no racial disparity, or if anything, 
Whites are consuming at a slightly higher rate in the national 
population.
    This result is a consequence of policing behavior and the 
decisions that police are making about whom to arrest when they 
see them smoking marijuana in public, but I merely want to give 
it as a concrete illustration of the main point that I am 
trying to make, which is that the weight of this institutional 
transformation is being borne vastly disproportionately by some 
of the most disadvantaged people in our society, and a 
fundamental question of fairness is raised by that, in my mind, 
and I want to call it to your attention.
    Finally, let me just say this about the War on Drugs: I am 
a economist and I cannot help take note of the fact--again, it 
is in your handout--that while the War on Drugs--I have a chart 
that says ``Winning the War: Drug Prices, Emergency Treatment, 
and Incarceration Rates, 1980-2000.''
    [The referenced chart appears in the Submissions to the 
Record on page 52.]
    I just cannot help but take note of the fact that the solid 
line in that chart that is moving upward over the course of 
those 20 years, is a measure of the number of inmates in prison 
for drug offenses, that has increased steadily.
    The dashed line in that chart, which also moves upward over 
the course of those 20 years is a measure of the number of 
emergency room admissions of people who have gone with drug 
maladies to emergency rooms, and so that gives some measure of 
the intensity of abuse of drugs.
    All the other lines in that chart are measures of the 
quality-adjusted price on the street, of heroin, cocaine, and 
methamphetamine. As you can see, with the exception of 
methamphetamine, which has a price spike in the late 1980s and 
early 1990s, all of those lines are headed straight down, which 
is to say that over the 20-year period from 1980 to 2000, while 
we have severely ratcheted up the intensity of the punishment 
of drug offenders, the problems from drug use have not abated--
witness the emergency room admissions--and the ease of 
obtaining the substances on the street has not been diminished. 
The best measure of that is the price of the substance on the 
street, which has been going down, in quality-adjusted terms.
    Senator Webb. Dr. Loury, we are going to have to ask you to 
wrap this up pretty fast.
    Dr. Loury. Thank you very much for the opportunity.
    [The prepared statement of Dr. Loury appears in the 
Submissions for the Record on page 47.]
    Senator Webb. There will be further opportunities to get to 
those points, and we thank you very much for the eloquent 
testimony. Dr. Western?

STATEMENT OF DR. BRUCE WESTERN, DIRECTOR, INEQUALITY AND SOCIAL 
     POLICY PROGRAM, KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
                           UNIVERSITY

    Dr. Western. Mr. Chairman and members of the Committee, 
thank you for the opportunity of testifying today about the 
causes and economic effects of the growth in the incarceration 
rate.
    The fraction of the population in State and Federal prison 
has increased in every single year for the last 34 years. The 
rate of imprisonment today is now five times higher than in 
1972. The U.S. rate of imprisonment is 5 to 10 times higher 
than in the longstanding democracies of Western Europe.
    Internationally, our incarceration rate is only rivaled but 
not exceeded by the incarceration rates of South Africa and 
Russia.
    Today's novel rates of incarceration are most remarkable 
for their concentration among young African American men with 
little schooling. To understand the prevalence of the penal 
system in the lives of these young men, I calculated the 
percentage of men who have ever been to prison by their mid-
thirties.
    Most prisoners will be admitted for the first time, before 
age 35, so this is an estimate of the lifetime chances of going 
to prison.
    Now we are talking about prison incarceration, not jail 
incarceration. This is at least 12 months of time served in a 
State or Federal facility, for a felony conviction. It is an 
average of 34 months of time served.
    For men born in the late 1940s, who reached their mid-
thirties in 1979, Blacks were 9 percent likely to go to 
prison--about 1 in 10 Black men would go to prison, if they 
were born in the late 1940s.
    For Black men born in the late 1960s, the lifetime chances 
of imprisonment had grown to 22.8 percent. Among Black men 
without a college education, now in their early forties, nearly 
a third have prison records, and for young Black male dropouts, 
prison time has become a normal life event.
    A number of people have quoted this statistic today, and I 
estimate that about 60 percent of young Black male high school 
dropouts born since the late 1960s will go to prison at some 
point in their lives.
    Young Black men are now more likely to go to prison than to 
graduate college with a 4-year degree, and they are more likely 
to go to prison today than to serve in the military.
    These extraordinary rates of incarceration are new. We need 
only go back 20 years to find a time when the penal system was 
not pervasive in the lives of young African American men.
    In the period of mass incarceration, Blacks have remained 
seven to eight times more likely to be incarcerated than 
Whites. This large racial disparity is unmatched by most other 
social indicators.
    Racial disparities in unemployment, non-marital child-
bearing, infant mortality, and wealth, for example, were all 
significantly lower than the racial disparity in imprisonment.
    These high rates of incarceration have significant economic 
consequences. My analysis of the National Longitudinal Survey 
of Youth indicates that incarceration reduces hourly wages by 
between 10 and 15 percent, and this is in a population that has 
very poor economic opportunities to begin with.
    Annual employment is reduced by 10 to 15 percent. Because 
of the combined effects on wages and annual employment, the 
effects on annual incomes are very large, and I find that the 
annual incomes of formerly incarcerated men are about 35 
percent to 40 percent lower than for similar men who have not 
been incarcerated.
    These effects of incarceration on individual economic 
status are not new. We can find research going back to the 
1960s, providing similar results.
    What is new is the scale on which these effects are now 
being played out. Because returning prisoners are highly 
concentrated in poor urban neighborhoods, the economic 
penalties of incarceration now permeate the most economically 
vulnerable families and communities.
    Because incarceration rates are now so historically high, 
assistance for reintegration and rehabilitation will also be 
felt, not just by those coming out of prison, but by the poor 
and minority communities from which they originate.
    What can we do? I suggest three types of policies would 
help alleviate the social and economic effects of mass 
incarceration: Congress should reexamine the large number of 
collateral consequences limiting the access of ex-felons to 
Federal benefits and employment.
    Many restrictions, such as limitations on educational, 
welfare, and housing benefits, do not serve public safety, 
impede the reintegration of the formerly incarcerated, and 
penalize family members.
    While restrictions on benefits or employment might be 
justified, if they are closely linked to particular crimes, 
such restrictions should be strictly time-limited, because of 
the strong pattern of criminal desistance with age.
    Two, Congress should support prisoner re-entry programs 
that provide transitional employment and other services. Well-
designed programs have been found to improve employment and 
reduce recidivism.
    Research suggests that community-based re-entry programs 
should ideally be integrated with education and other programs 
in prison. Post-prison employment would be encouraged by 
passage of the Second Chance Act.
    I am very encouraged by the remarks of the Committee on the 
Second Chance Act of 2007 today. Employer incentives can be 
promoted through expansions of the Work Opportunity Tax Credit 
and the Federal bonding program.
    Three, Congress should support the establishment of 
criminal justice social impact panels in local jurisdictions, 
that can evaluate unwarranted disparities in juvenile and adult 
incarceration.
    By assessing the link between socioeconomic disparities in 
offending and disparities in incarceration, local social impact 
panels could identify and take steps to eliminate 
disproportionate incarceration in poor and minority 
communities, or indeed, in any community.
    My research indicates that the penal system now places a 
very heavy burden on poor and fragile families. But this story 
is largely unknown outside the communities most affected.
    Robust action by Congress can change our national 
conversation about criminal punishment, help ensure that the 
great benefits of our economy are passed on to the poorest, and 
by doing so, will promote public safety. Thanks very much for 
the opportunity.
    [The prepared statement of Dr. Western appears in the 
Submissions for the Record on page 57.]
    Senator Webb. Thanks very much, Dr. Western. Alphonso 
Albert, who has a hands-on career, I am very interested in 
hearing your views, sir.

   STATEMENT OF ALPHONSO ALBERT, EXECUTIVE DIRECTOR, SECOND 
                            CHANCES

    Mr. Albert. Thank you. Chairman Webb, Vice Chair Maloney, 
Senators, Congressman Scott, thank you for having me here 
today.
    I work in this area every day. I work with the offender 
every day and I see a lot of the issues and problems firsthand.
    Over the past 8 years, Second Chances has served more than 
1200 offenders; provided more than 900 jobs at an average wage 
of $9.00 an hour; maintained more than a 73-percent retention 
rate for employment over 2 years, and something I neglected to 
include in my written statement, but after listening to Senator 
Brownback, I was reminded to include that we have maintained 
less than a 10-percent recidivism rate over the 8-year period, 
and that is for the entire 1200 that we have served.
    We have initiated or implemented programs that work with 
children of incarcerated parents in providing tutoring, 
cultural outings, exposing them to alternative kinds of things.
    We have instituted a housing initiative for offenders that 
are returning, that are homeless. It is a permanent supportive 
housing initiative.
    We jointly collaborated with one of our late local State 
funders and the city of Norfolk, and implemented a housing 
program.
    We have implemented three business enterprises where we 
hire offenders at a minimum wage of $8 an hour, and if they are 
able to get their license--and we help them get that, because 
that is a major challenge. A drivers license and ID when they 
leave prison is a major challenge and a major obstacle.
    When they get a drivers license, we are able to pay them 
$12 an hour with benefits. It is a moving company, a 
landscaping company, and a building maintenance company that we 
have initiated to employ the offenders ourselves, aside from 
working with local employers.
    There is a collateral cost, I think, to incarceration that 
largely goes unspoken. And let me just say, before I get fully 
into my presentation, that I wholeheartedly agree with the 
recommendations of Dr. Western.
    He really touched on some significant points that I think 
we do not often think about when we talk about providing 
services to offenders, supporting re-entry initiatives, and the 
kinds of recommendations that he made earlier.
    But the cost is one to the families, and most offenders 
that we see, actually, I believe, all come from a family, but 
most have families. One of the reasons that the stats that 
Senator Brownback quoted about a family member is five times 
more likely to be incarcerated themselves, is because the same 
conditions that existed for that offender will exist for that 
family member unless there is some intervening factor that we 
try to disrupt, if you will.
    It is not because those people are predisposed to 
incarceration, but they are going to come up in the same 
conditions. The children are going to come up in the same 
conditions, they are going to be under-educated, have limited 
employment opportunities, with the same influences around them, 
and so they are subject to the same outcome and same results.
    The greatest challenge that we face on a daily basis in 
working with the offenders is lack of pre-release planning and 
post-release services; pre-release planning, because the 
expectation of the offender is often quite different when they 
seek to get out, and the expectations of probation and parole, 
if they have a probation officer, if they happen to have any 
parole, which is getting less and less likely, the expectation 
of how helpful that parole officer will be, what family members 
will be.
    We have instituted housing laws that are discriminatory, 
which makes it difficult for an offender to even go back and 
connect with his family.
    I know, locally, in the city of Norfolk, with our local 
housing authority, if an offender were to try to use his family 
as a stabilizing source or force, whereas most people that get 
in life crisis or life challenge or difficulty can go to 
family, he cannot. He cannot be seen connected with the family.
    He cannot go into that community again. Private-sector 
housing persons are able to discriminate, based on him having a 
record, so it is less and less likely that he can even get an 
apartment or place of his own, even if he has resources.
    Recently, the State of Virginia became one of seven States 
around the country to participate in the National Governors 
Association Re-entry Policy Academy. Virginia subsequently 
initiated five pilot programs around the State, but they have 
done so with no funding.
    And with no funding, there are no counselors to initiate 
pre-release planning, there is no funding to support post-
releases services to help people with case management, to help 
people with job placement, job referrals, life skills training, 
any kind of skills training that creates a situation where the 
person is better off coming out than they were going in.
    Those are some of the challenges that we face. I would 
venture to say, at the legislative level, both locally, 
statewide, and federally, we have had an approach that sort of 
advocates revenge as opposed to exacting public justice.
    It seems that we advocate for revenge, and so we get 
systems--and when we work with offenders, like local circuit 
court systems, collection agencies that seem content on 
exacting greater levels of punishment, they feel compelled to 
perpetuate the punishment, like, I want to be a part of this 
that makes it more difficult for you to make a transition, so 
that the offender gets no support.
    If he is trying to get a collection on how many court costs 
and fines he has, child support enforcement, that locks him up 
when he is not working and says it is voluntary unemployment, 
so he cannot earn money to pay off child support that he is 
already amassed.
    And so it seems that at every level, somebody else is 
exacting more punishment. I will say this one last thing, 
Senator Webb: A young lady came into my office. She was a part 
of our program for a long time, and she has become a part of a 
group we call the Advocates for Second Chances, and she 
advocates for other people that are going through life 
transition in the peer support group.
    And she had been recently turned down for a license to get 
her nursing license. She had gone to school, she had gone 
through all the hoops, she had lost two jobs the year before, 
and she came in my office and she sat down and she started 
crying.
    She asked me, she said, it has been 18 years and I would 
like to know, when is the debt paid? At what point is this debt 
going to be paid?
    And I think a lot of our offenders face that daily, where 
there seems to be no end to the punishment. Thank you.
    [The prepared statement of Mr. Albert appears in the 
Submissions for the Record on page 65.]
    Senator Webb. Thank you very much, Mr. Albert. I couldn't 
agree more with what you just said.
    Dr. Jacobson, welcome.

        STATEMENT OF DR. MICHAEL P. JACOBSON, DIRECTOR,
                   VERA INSTITUTE OF JUSTICE

    Dr. Jacobson. Thank you, and good morning Senator Webb, 
Vice Chair Maloney, and to the rest of the Committee members 
for inviting me here today.
    The United States now spends over $60 billion annually to 
maintain its Corrections System, reflecting the fact that we 
imprison--as we have heard many times today--a greater 
percentage of our population than any other nation on earth.
    In the last 30 years we have seen our jail and prison 
population rise from almost 250,000 to almost 2.3 million 
currently, nearly a tenfold increase. The strain that this 
geometric increase in those incarcerated puts on our States and 
cities is cumulative and continues to grow.
    Over the last decade and a half, the only function of State 
governments that has grown as a percentage of overall State 
budgets is, with the exception of Medicaid, corrections. The 
rate of growth of spending on corrections in State budgets 
exceeds that for education, health care, social services, 
transportation, and environmental protection.
    There is a very clear relationship between the amount of 
money we spend on prisons and the amount that is available, or 
not available, for all these other essential areas of 
government. In many States--and California is one that 
specifically comes to mind--one can literally see money move in 
the budget from primary and secondary education to prisons.
    State budgets tend to be largely zero-sum games, and 
increases in corrections spending have absolutely held down 
spending in these other areas of government, many of which are 
also directly related to public safety.
    Of course the obvious question this raises is: What do we 
get for that money? Certainly there should be some significant 
connection between our tremendous use of prison and public 
safety.
    As most people know, the United States experienced a large 
crime decline from the early 1990s to the early 2000s, and it 
would seem to make intuitive sense that our significantly 
increasing prison systems played a major role in that decline.
    In fact, it is a far more mixed story than it appears. 
There is consensus among criminologists and social scientists 
that over the last decade our increased use of prison was 
responsible for only some--maybe one-fifth, but by no means 
most--of the national crime decline.
    Additionally, there is also agreement that going forward 
putting even more people in prison will have declining 
effectiveness as we put more and more people in prison who 
present less and less of a threat to public safety.
    At this point, putting greater numbers of people into 
prison as a way to achieve more public safety is one of the 
least effective ways we know of to decrease crime.
    We know, for instance, that even after spending tens of 
billions of dollars on incarceration, more than half of those 
leaving prison are back in prison within 3 years, not a result 
that anyone should be proud of.
    We know that targeted spending for effective in-prison and 
post-prison re-entry programs will reduce crime, and thus the 
number of victims, more substantially than any prison 
expansion. We know that diverting people who are not threats to 
public safety from prison into serious and structured 
community-based alternatives to prison is more effective than 
simply continuing to incarcerate these same people at huge 
expense.
    In the same vein, research shows that increasing high 
school graduation rates, certain neighborhood-based law 
enforcement initiatives, and increases in employment and wages 
will also more effectively reduce crime than a greater use of 
prison.
    We also know that incarcerating so much of our population, 
and especially the disproportionate incarceration of people of 
color, comes with other costs as well. We have heard many of 
them already.
    Hundreds of thousands of people leave prison annually with 
no right to vote, no access to public housing, hugely limited 
ability to find employment, and high levels of drug use and 
mental illness.
    These unintended consequences of incarceration ripple 
through families and communities as those returning home are 
overwhelmed by seemingly intractable obstacles. Not 
surprisingly, astounding numbers wind up returning to prison, 
further draining scarce resources that could be made available 
to deal with some of these obstacles themselves.
    As someone who used to run the largest city jail system in 
the country, I know that most people who leave jail and prison 
do not want to go back. It is a miserable and degrading 
experience, and my colleagues who run these systems and I 
always marvel about the number of people who, once they leave 
prison, want to make good and do good.
    Once they leave, however, they are confronted by such 
overwhelming barriers on which we currently spend almost no 
money or attention that no one should be surprised when these 
same people return to prison so soon.
    We know that States can continue to decrease crime and 
simultaneously decrease prison populations. New York State, for 
example, for the last 7 years has seen the largest decrease in 
its prison population of any State in the country--a decline of 
14 percent.
    The rest of the States increased their prison populations 
by an average of 12 percent over the same time period, and many 
States increased far more than that.
    At that same time, violent crime decreased in New York 
State by 20 percent compared to just over 1 percent for the 
rest of the country.
    Prison populations can drop, along with crime and 
victimization. If we were serious about using our limited 
resources most effectively to reduce crime and victimization 
and increase public safety, then we would begin to responsibly 
and systematically transfer to community-based prevention, re-
entry, and capacity building some of the resources now used to 
imprison people.
    It is important to stress here that this is an issue of 
public safety. Even putting aside all arguments about 
efficiency and effectiveness, talking only in terms of public 
safety, we will all be safer if we begin to re-invest into 
other programmatic initiatives both inside and outside the 
criminal justice system some of the money that now goes to 
incarcerate people who do not pose a threat to public safety 
and who, in fact, become more of a threat to public safety once 
they have been imprisoned.
    The fact is that almost all the extant research points out 
that our prison system is too big, too expensive, drains funds 
away from other essential areas that can more effectively 
increase public safety, and is harmful to our poorest 
communities.
    Despite all this research, however, we continue to imprison 
more and more people. There are a host of reasons for this 
ongoing trend, including the attraction of prisons as engines 
of economic development for rural communities, the financial 
incentives for public employee unions as well as for the 
private prison industry in spending more on prisons, the 
realities of the budget process and constrained budgets that 
limit opportunities to make substantial investments in new 
initiatives, and the omnipresent hyper-politics that surround 
issues of crime and punishment in the United States.
    These are all formidable obstacles, but none should be 
sufficient to keep us from educating policymakers and the 
public that there is a better way to be safe and have less 
crime. Thank you.
    [The prepared statement of Dr. Jacobson appears in the 
Submissions for the Record on page 66.]
    Senator Webb. Thank you very much.
    Mr. Nolan, welcome.

            STATEMENT OF PAT NOLAN, VICE PRESIDENT,
                       PRISON FELLOWSHIP

    Mr. Nolan. Thank you.
    Mr. Chairman and Members, I appreciate very much this 
opportunity to share my thoughts with you on the costs of the 
massive increase in incarceration in the United States. As Mr. 
Chairman mentioned, I am vice president of Prison Fellowship 
and served in the California Legislature for 15 years, 4 of 
those as Republican leader. I was reliably tough on crime 
legislator.
    I was one of the original sponsors of the Victims Bill of 
Rights and was awarded the Victims Advocate Award by Parents of 
Murdered Children.
    Then I was prosecuted for a campaign contribution I 
accepted which turned out to be part of an F.B.I. sting, and I 
served 29 months in Federal custody.
    Now God has placed me in a position of Prison Fellowship 
that allows me to share my observation with government 
officials like you to use my experience as a lawyer, a 
legislator, and a prisoner to improve our system.
    The figures on incarceration are staggering. One in every 
32 adult Americans is in prison or on supervised release--1 in 
every 32.
    Prisons have become the fastest growing item in State 
budgets, siphoning off dollars that could otherwise be 
available for schools, roads, and hospitals. Offenders serve 
their sentences in overcrowded prisons where they are exposed 
to the horrors of violence, including rape; isolation from 
family and friends; and despair.
    The best way I can describe to you how it feels to be in 
prison is: I was an amputee. I was cut off from my family, from 
my home, from my community, from my job, and from my church. 
Then, with my stumps still bleeding, I was tossed into a 
roiling cauldron of anger, bitterness, despair, and often 
violence.
    Most inmates are idle in prison, warehoused with little 
preparation to make better choices when they return to the free 
world. Just one-third of all released prisoners will receive 
vocational or educational training in prison.
    While about 3 of every 4 prisoners has a substance abuse 
problem, less than 20 percent will receive any drug-abuse 
treatment while they are incarcerated.
    The number of returning inmates is now four times what it 
was just 20 years ago, yet there are fewer programs to prepare 
them for a successful return to our communities.
    On leaving prisons they will have difficulty finding 
employment. The odds are great that they will return to prison. 
More than 700,000 inmates will be released next year from our 
prisons. To put that in context: That is three times the size 
of the United States Marine Corps. Over 1900 felons a day will 
be released from prisons and returned home.
    What has been done to prepare them to live healthy, 
productive lives? What kind of neighbors will they be? Our 
large investment in prisons might be justified if inmates were 
reformed in their hearts and their habits, but most inmates do 
not leave prisons transformed into law-abiding citizens.
    In fact, the very skills they learn inside to survive make 
them anti-social when they come home. The fact of the matter is 
that if things continue as they are, most of the inmates 
released will commit more crimes.
    Over the last 30 years, the rate of recidivism has remained 
steadily at about two-thirds. If two-thirds of the patients 
leaving a hospital went home sick, we would find a better way 
to treat them.
    We have to find a better way to help inmates change their 
lives so they can live safely in the community.
    One important step would be to pass the Second Chance Act. 
I am delighted that so many members on the dais are co-sponsors 
of it. We are very close to passing it. It will help our States 
and communities develop ways to prepare inmates for their safe 
and successful transition home.
    But in addition to prison preparation, we must also examine 
the sentencing statutes that put so many nonviolent offenders 
in prison. Certainly we need prisons to separate the dangerous 
offenders from our society. But given the over-crowding and 
violence in our prisons, why on earth would we send a 
nonviolent person to prison?
    Prisons are for people we are afraid of. Yet our sentencing 
laws have filled them with people we are just mad at.
    Changing our sentences so that low-risk offenders are 
punished in the community under strict supervision would reduce 
overcrowding in prisons and help control the violence. It would 
hold low-risk offenders accountable without exposing them to 
violence and the great difficulties of transitioning back to 
employment in the community after their sentence.
    The moment after offenders step off the bus, they face 
several critical decisions:
    Where will they live?
    Where can they get a meal?
    Where should they look for a job?
    How do they get to the job interview?
    And where can they earn enough money just to pay for the 
necessities of life?
    Returning inmates are also confronted with many details 
that are just personal business, for example, obtaining ID 
cards. Why on earth would we send inmates home from prison 
without an ID or a license? We know who they are.
    Some States--Alabama, for instance, gives them a check for 
$5, but no ID. Now how do you cash that check when you get 
home?
    Making medical appointments is extremely difficult for 
them, as is working through the many bureaucratic problems of 
everyday life. Individually they are difficult. Taken together, 
they can be overwhelming.
    The difficulties that inmates face prompt intense stress, 
and they worry about the logistics of just getting by. To 
someone who has had no control over their lives for a period of 
years, it floods them with too much, too many decisions to 
make.
    My own experience is a good example. The day I came to the 
halfway house, a bunch of my buddies from the capitol took me 
to the 8th Street Deli. They all ordered. The waiter stood 
there. I knew what I was supposed to do, but my eyes raced over 
the menu and I was paralyzed. I couldn't decide what to order.
    For 2 years I had not had a choice over what to eat. So 
finally, out of embarrassment, I just ordered what my eyes lit 
upon just to get that humiliation over with.
    Now, think about the person that leaves prison that did not 
come from a good family, that did not have my education, that 
did not have the strong faith I had. How do they deal with all 
these issues? Issues of life and death in many cases. That's 
what confronts them. And we do so little to prepare them.
    I realize I am running out of time. I would just like to 
make a couple of extra points. One is the importance of mentors 
and the Second Chance Act as a grant program to help community 
and faith-based groups establish mentoring programs.
    What at-risk people need are loving people to help them 
with all these decisions I just discussed. Dr. King said: ``To 
change someone, you must first love them and they must know 
that they are loved.''
    The government and its programs cannot love a person; only 
people can do that. So we really need to encourage volunteers, 
most of which come from churches, synagogues, and mosques, to 
come along beside these people and invest in them.
    Prison Fellowship for 31 years has served prisoners, ex-
prisoners, and their families. We have found six things that 
are essential.
    One is: Community. Put men and women in facilities, in 
dorms, housing units, where those that want to change their 
lives can have a community free from the usual prison 
atmosphere.
    Second: Consistency. Being able to work with them on a 
consistent and frequent basis--daily if possible.
    Third: Character. A focus on moral and personal issues that 
led to criminal behavior. The inmates need a moral compass to 
help them make the decision when they get out. They say 
``character'' is doing what is right when no one is looking. We 
have to help them understand why that is important.
    Fourth: It is comprehensive. It should focus on 
transformation of every aspect of their lives: Spiritual 
formation, education, vocational training, substance abuse 
treatment, life skill training, and parental skills.
    Fifth: It should be continuous. It should start in prison--
--
    Senator Webb. Mr. Nolan, we are going to have to ask you to 
summarize your remarks.
    Mr. Nolan. As a State legislator I made the mistake of 
thinking that locking up more people would automatically make 
us safer. Only when I was in prison did I realize that 
imprisoning so many of our people while doing little to prepare 
them to come home actually makes us less safe.
    When two out of three inmates are arrested within 3 years 
of release, our criminal justice system is failing us. Prisons 
do not exist as an end in themselves. They exist to make our 
communities safer. We must hold them accountable to do that.
    I am grateful to God that I live in the United States so 
that Inmate 06833097 can come and testify before Congress and 
express my opinions without fear of arrest. And I am so 
grateful to all of you for caring enough to hold this hearing 
and try to start a public discussion of this serious problem 
that confronts us.
    Thank you.
    [The prepared statement of Mr. Nolan appears in the 
Submissions for the Record on page 68.]
    Senator Webb. Thank you very much, Mr. Nolan, for your 
testimony. I appreciate all of the testimony today. It has been 
very eloquent, and I appreciate the patience of our colleagues 
here. We all have to run according to the clock, but there is 
so much valuable information that we need to be listening to, 
so I did extend the clock quite a bit.
    I will begin our question period. We will go down the line 
and have more than one round, if people want to ask further 
questions.
    I would like to just quickly start off by saying I became 
interested in this on a policy level about 25 years ago when I 
was, to my knowledge, the first American journalist who was 
able to get inside the Japanese jail system. I did a story for 
Parade Magazine about Americans in Japanese Jails.
    At that time, even though I had been a committee counsel 
here, and I had a law degree, it was the first time that I 
really sat down and read--I read all of the Bureau of Justice 
Statistics about crime in the United States to try to make a 
comparison, and there were a couple of things that jumped out 
at me at that point.
    One was that Japan had a population half the United States, 
one-half exactly at that time, and they only had 40,000 people 
in jail. They had 50,000 people under government control, 
10,000 awaiting resolution of their cases. But at that time we 
had 780,000 people in jail, and we were probably second in the 
world in terms of the incarceration rate. Now we have got more 
than 2 million people in jail.
    I have followed this over the years, and I am grateful that 
I have had the opportunity to be able to start to work on this 
process, and I am committed to trying to do something about 
this not just today in this hearing but in the future.
    One of the things that needs to happen in my opinion, 
whenever you start trying to turn policies around, is that the 
American public needs to understand the dimensions of the 
problem, the cultural dimensions of the problem rather than 
simply going to one bill or another bill.
    In the testimony today there were a couple of things that 
had come up. And Dr. Loury you were very specific about this in 
your writings, which I have found to be incredibly perceptive.
    Karl Zinsmeister, who works in the White House now.
    Vice Chair Maloney. Chairman Webb, we have a series of 
votes in the House, so we----
    Senator Webb. Would you like to say something before you 
go, then?
    Vice Chair Maloney. I just would like to----
    Senator Webb. I will interrupt my questions and----
    Vice Chair Maloney. Just 2 seconds to welcome very strongly 
Dr. Jacobson, who has served with great distinction in the city 
in which I live, and I know him from my city council days. 
Congratulations on your service. I thought all of your 
testimony was very moving, and we want to do something about 
it. But right now we have got to go vote and we will try to get 
back, but thank you.
    Senator Webb. Well thank you very much for coming over, and 
I hope we can work on this more in the future.
    Two pieces come together, and I would like to get your 
reactions on this: One is that Karl Zinsmeister was saying at a 
panel--he works for President Bush now, he used to be the 
editor of American Enterprise Magazine and had worked for 
Senator Moynihan at one point--he was talking about the fact 
that family stability is a key indicator to success in America.
    And what we see here when you are discussing the adverse 
effects of the avalanche that continues down when we go into 
incarceration is the incredible impact on and the destruction 
of the family, particularly in the Black community right now.
    A second piece that I find very persuasive--and I would 
like to get your reactions to--is this notion, and Dr. Loury 
you mentioned it specifically with your charts up here--that 
particularly in drug cases, the point of arrest seems to 
identify who the criminal is, rather than the conduct itself. 
You go into these neighborhoods where drugs are being sold, and 
the abnormality of, or the skewing of, the statistics becomes a 
function of where the arrests are made. The arrests are made in 
a specific spot because that is where the drugs are sold, which 
tends to skew the prison population--I would like to get your 
further thoughts on both of those points.
    We could just start down the panel, any way you want to 
discuss them. I think the American public needs to understand 
both of those.
    Dr. Loury. Well, let me just take this opportunity, in 
response to the question to call attention to some charts that 
I wanted to show during my testimony but did not have an 
opportunity to, which is a geographical map of New York City, 
``Changes In Spatial Concentration of Incarceration In New York 
City.''
    [The referenced chart appears in the Submissions for the 
Record on page 53.]
    So there is the chart. This is drawn from the work of the 
sociologists at Columbia University, the criminologist Jeffrey 
Fagan and his colleagues.
    Basically what is shown there are the areas (in red) with 
the highest concentration of persons incarcerated in New York 
State, who lived in New York City prior to their incarceration.
    The Black area is the next-highest level of concentration. 
And you can see there is a very geographically specific pattern 
to where people live in the city who end up going to prison 
from the city: certain neighborhoods in the north of Manhattan, 
in the south of Bronx, in Brooklyn, and in Queens. That was 
1985 on the left panel. The right panel is 1996.
    What you see is that the areas of high concentration in 
1985 are also areas of high concentration in 1996, but they 
have grown bigger; this shows that the epidemiology--the 
spatial pattern--of incarceration has a very clear structure in 
these particular areas of the city.
    The authors of the study from which that figure is drawn go 
on to observe that one consequence of this is that people who 
live in those neighborhoods who are incarcerated, once they are 
released from prison, come back to those neighborhoods; that 
police officers in pursuit of criminals are 
disproportionately----
    Senator Webb. Excuse me, Dr. Loury, may I interrupt you one 
second?
    Dr. Loury. Yes. Am I taking too much time?
    Senator Webb. Congressman Hinchey has to leave for votes, 
and I wanted to give him an opportunity to make any 
statements----
    Dr. Loury. Yes, of course.
    Senator Webb [continuing]. Or ask any questions before he 
leaves.
    Representative Hinchey. Well, Senator Webb, I thank you 
very much once again. And, Dr. Loury, please excuse the 
interruption.
    Dr. Loury. Not at all.
    Representative Hinchey. Sorry we're having this series of 
votes, but they are going to take another 40 minutes before 
they are over. We have six votes coming up, unfortunately.
    I just want to express my appreciation to you for bringing 
our attention to this issue, and for all of you and the 
testimonies that you have given.
    The focus of that testimony has largely been on the impacts 
that these circumstances and this structure has on the 
individuals, their families, and to a large extent also on our 
society.
    I would like to focus attention on one other aspect of 
this. That is, the causes. The causes of these high rates of 
incarceration, and the solutions that we should be addressing 
ourselves to try to reduce these high rates of incarcerations.
    I think one of the problems that we confront is the 
definition of crime, which was altered dramatically, as you 
pointed out, all of you, in the mid-1970s and from there on, 
the so-called War on Drugs, for example, is a creation that was 
put into place largely for political purposes, I believe, and I 
think that that really needs to be addressed.
    So many of the people--the largest percentage, I believe, 
of the people that we have in prison across the country both 
State and Federal are based upon offenses dealing with the drug 
issue. And the ``War on Drugs'' reminds me of the establishment 
of Prohibition back in the 1920s, and that created a huge 
influx of various sorts of crime and disruption within our 
entire society.
    So I think that these are some of the things that we need 
to address, and I would like very much to be able to work with 
you, Senator, or both of you--I know you are both strongly 
committed to this issue--and I hope that we can come up with 
some solutions.
    So once again, thank you.
    Senator Webb. We appreciate your support. Hopefully we can 
get the House interested in the Second Chances Act as a 
starting point on this.
    Representative Hinchey. Yes, indeed.
    Senator Webb. Thank you very much, Congressman.
    I did not mean to interrupt you.
    Dr. Loury. Not at all, and I think I may have been going 
on. I want to give others the chance. May I just comment 
briefly on your reference to Mr. Zinsmeister and the issue of 
the family.
    What I want to say about that is: Yes, of course strong 
families are a very good thing, and where families are strong 
criminal offending can be expected to be less. But the other 
thing that I want to add is that association is not causation.
    One point that I think we need to be clear about here is 
that sometimes common factors can be both undermining the 
strength of the family and promoting criminal participation in 
the population.
    So, you know, it would be wonderful if the family were 
stronger, particularly within the African American community, 
but it may be a mistake to say: Oh, if we could only strengthen 
the family, then everything would be all right. Because, as I 
have said, the fact that common factors of disadvantage, and 
stress, and economic marginality may be both undermining family 
relations and promoting criminality.
    Senator Webb. Thank you very much.
    Dr. Western, do you have any thoughts on this?
    Dr. Western. Three quick thoughts on the family, Senator:
    The men in prison are much more likely to have low levels 
of education, poor work histories, and to be economically 
disadvantaged in a whole variety of ways, but they are not any 
less likely to have children than the rest of the population. 
So they are as connected to children in that sense as the rest 
of the population.
    The implication of this is that these very high rates of 
incarceration are creating very high rates of paternal 
incarceration. So there are very large numbers of children now 
who are experiencing a parent being sent to prison, and they 
parallel the figures that we have seen for incarceration rates 
for adults.
    Incarceration is very stigmatic. The stigma of 
incarceration, the loss in social status, ethnographic evidence 
shows is passed on to children.
    As well, incarceration is associated--the third point with 
increased risk of divorce and separation. So this run-up in the 
incarceration rate has been tremendously corrosive of family 
structure in the poor communities most affected.
    On drug arrests, very quickly, drug regulation is a very 
different category of crime from all others. We do not have 
good figures on the level of drug use in the population. There 
are surveys, but the main figures we rely on are arrest rates. 
And arrest rates are produced largely through policy decisions 
about policing and not underlying patterns of offending.
    Where drugs are traded in public space, as they are in 
urban areas, rather than in private spaces, they are in 
suburban homes, we are going to see patterns of policing, I 
think, that are going to generate these very large racial 
disparities that we saw in the statistics that Professor Loury 
presented.
    So I think these trends in drug arrests we see do not 
reflect trends in underlying behavior, but they are very much 
produced by decisions about policing. And because of the nature 
of the drug trade, that significantly explains the racial 
disparities we have observed.
    Senator Webb. I think it is important for the American 
public to understand that. That is one reason I wanted to flag 
it. As you reach for a solution, this is not a pattern of 
behavior so much as it is a pattern of arrest, quite frankly.
    Dr. Western. I think that is absolutely correct.
    Senator Webb. Mr. Albert, would you like to add anything on 
this?
    Mr. Albert. Just the fact, Senator Webb, that I think a lot 
does happen at arrest. I happen to sit on a local committee 
that is grant-funded to look at something called 
``Disproportionate Minority Contact.'' And one of the 
challenges, I think, to this Committee is assigning blame 
without assigning blame: Looking at every point in the process 
where there is a decision to be made about how to charge 
someone. What type of offense to charge a person with, if there 
is indeed an offense that has been committed? And this is 
affecting juveniles, but I think the same holds true for 
adults.
    At the decision-making point, at every point in the system, 
the decision consistently is made in the extreme for 
minorities, and I think that gets the results that we see 
today.
    Now at some point something drives that. And I think a lot 
of it has to do with perception. I think a lot of it has to do 
with living patterns. I think a lot of it has to do with our 
decisions about where to allocate resources; the quality-of-
life kinds of calls for service, and all of a sudden that 
becomes a problem neighborhood.
    It is easier to see certain things that cost more resources 
to investigate when people are able to do things inside their 
home, in closed communities, and so it is an easy issue to 
address.
    So it is one of those things for me that is both simple and 
complicated at the same time. I think it is simple to see and 
understand, but very complicated to address.
    Senator Webb. Dr. Jacobson? Mr. Nolan?
    Dr. Jacobson. Yes, two quick points. One is on the 
relatively low-level drug arrests issue, in addition to all the 
issues that have been raised here.
    Compared to having almost no one in State prisons for drug 
offenses 20 years ago, there are probably something like 
300,000 people there now. Again, if you look at the extant 
research, drug sale and possession cases are crimes for which 
criminologists tend to feel that incarceration provides 
absolutely no public safety benefit.
    It is very different from incarcerating someone who commits 
violent crimes or someone who is a rapist. There you are 
obviously deterring that behavior. The person is in prison. 
There is hopefully some general deterrence.
    When you imprison what is usually some young kid dealing 
drugs on the street corner, you get what criminologists tend to 
call a one-for-one replacement. With that person in prison, 
there is an economic opportunity. It is a job. Someone else 
takes up that activity.
    So you wind up spending incredible sums of money making 
people worse when they come out and getting essentially nothing 
from it except harm.
    The other point that I would like to make related to all of 
this is: If you look at Professor Loury's charts up there, 
which happen to represent New York City but that could 
represent any city in this country, they all have the same 
patterns. There are incredibly concentrated geographic areas of 
mostly cities' poorest residents, and primarily communities of 
color that have huge numbers of people go up and back to State 
prison.
    If you look at where those residents come from, how many 
there are, and the percentage they make up of the State prison 
population, New York State spends--and this is true in every 
State--hundreds of millions of dollars on the residents of 
those poorest communities. We just do not spend any of that 
money in those communities. We take people out of those 
communities, and we spend that money to hold them upstate.
    And as long as we continue spending money on prisons 
instead of spending it on strengthening those communities and 
building them up, this cycle will continue.
    This gets back to my point about using the money we now 
spend differently. We spend huge amounts of money on people who 
live in the poorest areas in any city. It's just that the money 
does not go to those areas, it goes to different areas.
    Senator Webb. Thank you. I apologize for going over, 
Senator Casey, but we had those interruptions.
    Senator Casey. That is OK.
    Senator Webb [continuing]. One more thought, and then I'll 
turn it over to you.
    Mr. Nolan. I will be quick. Two things.
    One thing is: It should be the focus of our prison system 
to maintain and strengthen family ties. Sadly, it is the 
opposite. We place prisoners far from their families; 
oftentimes make it impossible, especially for the poor 
families, to visit.
    We treat families very disrespectfully when they come to 
visit. The visitation facilities are terrible. Hours are short. 
We have astronomical phone costs which make it hard to stay in 
touch that way.
    While I was in prison, I tried to read to my children over 
the phone. I would go over their report cards. I would read 
books they were reading in school. Now the Federal system 
limits the number of calls, and limits the number of phone 
numbers on inmates' call lists.
    Prison Fellowship has a program called Angel Tree that 
reaches out to children with a gift from their incarcerated 
parent. It is important that we keep those family bonds strong. 
We should do more to knit those bonds together.
    Another program in New York City La Bodega de la Familia, 
which aims at healing the whole family. They deal with the 
incarcerated parent, the spouse, girlfriend, or whatever, and 
children on the outside to reconcile them--there are oftentimes 
anger issues and frustration with the crime. They deal with 
codependency and actual dependency to try to ensure there is a 
welcoming home for them to come to.
    The last thing is Mr. Hinchey brought up the definition of 
``crime.'' When our Nation was founded there were four crimes: 
piracy--Federal crimes--piracy, counterfeiting, treason, I'm 
missing one. Anyway, there are now over 4,000 statutory crimes, 
and tens of thousands of regulations that are de facto crimes 
that there doesn't have to be criminal intent, you are just 
convicted of them.
    There is a group left and right called ``Over-
Criminalized.org,'' which includes the National Association of 
Criminal Defense Council, Heritage Foundation, ACLU, and Prison 
Fellowship. The group is looking at why do we have all these 
laws that make criminals of what are essentially normal 
relations between people? And why do we have so many laws that 
put people in prison for things that are just decisions of 
society that ``we don't like this,'' as opposed to being 
inherently evil or bad.
    Senator Webb. Thank you.
    I would like to note at this point that a statement from 
Congresswoman Sheila Jackson-Lee will be entered into the 
hearing record. I neglected to say that earlier.
    [The prepared statement of Representative Sheila Jackson-
Lee appears in the Submissions for the Record on page 73.]
    Senator Webb. Senator Casey, thank you for your patience, 
sir.
    Senator Casey. Thank you, Senator Webb. I appreciate you 
calling this hearing.
    I guess we will continue the left to right movement here.
    Dr. Loury, I wanted to ask you about something you 
testified to. I took a quick note, and I am not sure I got it 
all, but part of your testimony talked about the increase in 
the number of arrests--and I know you spoke to that a couple of 
times--but also the dramatic rise in emergency room admissions.
    Can you go back to that and just reiterate what you said 
about that, because it is a pretty dramatic fact.
    Dr. Loury. Yes, I can. I had the chart called ``Winning The 
War? Drug Prices, Emergency Treatment, and Incarceration 
Rates.'' It is not a floor chart; it was just on the handout.
    [The referenced chart appears in the Submissions to the 
Record on page 52.]
    Senator Casey. Oh, that is what it was. I think when you 
referred to it I did not have the handouts. I do not know if 
there is a----
    Dr. Loury. Yes, sir. There is a handout, and there is a 
chart here that is taken from the research of John Caulkins and 
his colleagues at Carnegie Mellon University, and it basically 
tries to measure over the 20-year period of 1980 to 2000 both 
the extent of incarceration and emergency room admissions for 
drug-related maladies.
    That is the dashed line in the chart there. The solid line 
is imprisonment, numbers of persons in prison for drug 
offenses. And then it juxtaposes with those trends the trend in 
the same time period of the quality-adjusted price of drugs on 
the streets of American cities, as best one could estimate it, 
and my point was simply to say that the solid line for 
imprisonment goes up. The dashed line for emergency room 
admissions goes up. But the lines for the prices are going 
down.
    What that is telling me is that we are incarcerating more 
people, but as has just been noted here, you lock up someone 
who is selling drugs, but you don't get rid of the market, you 
just create an opportunity for someone else to sell drugs.
    So we have not been effective at raising the price of drugs 
on the street; nor have we been effective at keeping people 
from getting and abusing the drugs in the sense that at least 
one indicator of that--emergency room admissions shows itself 
to be trending upward over this period.
    So that is what I was trying to say.
    Senator Casey. No, I appreciate that. And this is a great 
chart to have--of course it is always better if there is color, 
but we can work on a chart--but it really is a dramatic 
presentation, that even though arrests are up, ER admissions 
are up as well, and the price question is significant as well.
    I guess I want to play devil's advocate. I guess for the 
whole panel. Look, if someone is watching this hearing and they 
see the charts we have had, and they see the testimony just on 
the possession issue, or arrests for possession, they may be 
watching. And I am not sure I fully understand some of the 
points that we are trying to make here.
    They may be watching or listening, and they say: Well, 
look, if a law enforcement official encounters someone on the 
street and there is a law in place that you are supposed to 
arrest someone who has a controlled substance on them, and they 
arrest them, and that number keeps getting bigger, what are we 
arguing about here? Why is that a problem?
    And I think most people can differentiate and place a 
greater weight on, or understand the reason we penalize those 
who sell drugs maybe at a higher intensity than we penalize 
those who are, quote, ``only'' in possession, but (a) how do 
you deal with the devil's advocate question about: Look, they 
were possessing a substance, and they are arrested for it, and 
the numbers are going up. That is one question.
    But then how also do you deal with the other question, 
which is: Where is the problem there? Is the problem with the 
policy of arrest? Or is the problem with what happens after 
they are arrested? Or that we are locking too many of them up 
for, quote, ``only'' possession as opposed to selling?
    I guess there are two big questions there. One is the 
devil's advocate question. And the other is where is the 
problem with the policy.
    I don't know if I'm throwing it out to all of you, but each 
of you I know has some experience with these questions. 
Anybody.
    Mr. Albert. I can speak----
    Senator Casey. Mr. Albert.
    Mr. Albert. Thank you. I can speak very briefly to 
something we see with some low-level kinds of things. I will 
use as an example a marijuana arrest.
    The police officer has the discretion to, say, take a 
person to jail, in which case they have to post bail. And they 
risk some other kinds of factors like staying in jail a long 
time. If he's employed, risk losing employment. Being separated 
from his family if he can't post bail. Or, to give him a 
summons to appear in court, and then have the judge, once he 
appears in court with the summons, give him some kind of 
community alternative as opposed to incarceration.
    If the decision is made to arrest him and he cannot post 
bail, then his life is more complicated. He is in jail 
obviously longer. It costs the system more, obviously, to 
incarcerate him. He risks losing a job if he has one, and 
disrupting his family.
    The judge is more likely to sentence him to incarceration 
if he comes in front of the judge--and I am not an academician; 
I have not studied this, but I can tell you from my personal 
experiences from what I see in dealing with the people, if a 
person comes before the judge already incarcerated, he is more 
likely to be incarcerated by the judge if he is found guilty.
    If he comes in from the street as a result of a summons, or 
having posted bail, then there is a greater likelihood--and 
this is purely anecdotal--that he will be given an alternative, 
and not be incarcerated.
    So that is one example of how the decision at the point of 
contact is made that really starts the ball rolling. Once in 
jail, then there is a whole other set of factors that kicks in 
I think that sort of continues to exacerbate the issue.
    Senator Casey. Well that example helps me a lot to 
understand this better. How do we change that? Not that we can 
enact laws to impact every decision a police officer makes, but 
is that because there is a uniformity in how to treat that 
particular offender at the street level? Or is it really that 
we have to focus on what police officers are told about their 
discretion when it comes to a first-time possession situation? 
Or what do you think it is?
    Mr. Albert. I think police--and again I am purely speaking 
from my understanding of it--I think the police tend to----
    Senator Casey. Well you have had a lot of experience. You 
have dealt with a lot of these programs, and this is valuable.
    Mr. Albert. Sure. I think police tend to, in their decision 
making, reflect the sentiment of their community. And I think 
if a police officer sees a community going toward, or in the 
direction of an alternative to sentencing and an understanding 
of these kinds of things, if they see funding directed toward a 
program that sort of supports alternatives to incarceration and 
not sort of being quite as aggressive at the point of 
incarceration, they tend to make decisions that affect that.
    I am just starting an office for the city of Norfolk called 
the Office of Public and Criminal Justice for the city. The 
idea that the city manager wanted to move forward with the 
entire city is that communities need justice. The kids deserve 
the same right to an opportunity for education and not live 
under the threat of gunfire. But in the context of that, we see 
police officers who are adjusting the way they police, 
interacting with the community a different way because they 
tend to reflect, I think, the sentiment of their community.
    If they feel the community wants them to get extremely 
aggressive and tough at the point of contact, then I think they 
tend to do that. So I think as we support alternative programs, 
alternative to incarceration, as we support sort of these 
tactics that are not as aggressive with nonviolent offenses 
that tend to help people be more productive on the outside as 
opposed to incarceration, I think their mindsets tend to 
reflect that in their policing tactics and discretion.
    Senator Casey. Thank you.
    Dr. Jacobson. I think one other----
    Senator Casey. Mr. Jacobson.
    Dr. Jacobson [continuing]. Piece of that response to a 
person who asks, ``What's wrong with it'' , even absent the 
initial look at what police are making arrests for and how they 
use their discretion, addressing the assumption that once 
arrests have been made that it is perfectly appropriate to use 
jails and prisons for a variety of behaviors and crimes.
    It is just not appropriate to use prison or jail for almost 
every behavior in crime. But we tend to use prison and jail as 
our default punishment. That is what we do. It happens to be an 
exceedingly expensive, punitive, and potentially harmful 
punishment. So you have to be really careful how you use it.
    So part of the answer to, ``What is wrong with putting 
people in jail or prison once you arrest them'', is that the 
safety of the very person asking that question is affected if 
we put too many people in jail and prison. Because we are not 
dealing with their sobriety issues or their drug issues or 
their employment issues. And we know if we put people in jail 
or prison for relatively short periods of time, they are just 
going to be worse when they come out.
    The person raising these issues is going to be more at risk 
of being victimized, but we cannot afford to spend money on the 
programs we know would work better because we are putting 
everyone in jail and prison.
    So, it is a difficult decision to make. Governments should 
be very careful and parsimonious about how they make it. We 
tend to make the decision too easily for everyone because it 
works at some political level. It just does not work at a 
substantive level.
    Senator Casey. Mr. Nolan?
    Mr. Nolan. As a conservative I was suspicious of every 
branch of government--OSHA, DMV, CalTrans----
    [Laughter.]
    Mr. Nolan. But I turned a blind eye to law enforcement and 
prosecutors. I guess, thinking about it now, I guess it was 
because I felt their motives were right.
    The reality is: They are just government employees like 
everyone else. In fact, I have said that to understand prisons, 
take a DMV office and string barbed wire around it and give the 
clerks guns. That is the mentality of prisons.
    With prosecutors, it is the same way. I think police 
activity is often driven by the prosecutors, and prosecutors 
often want to drive up numbers. I will give you two examples of 
guys I did time with.
    One was a fellow named Jerry that had a private plane. And 
he was offered a quick opportunity to make a lot of money 
flying drugs into the United States from Mexico. He made one 
run, made a lot of money, decided he did not want to take that 
risk any more, he had too much at stake, and he and his wife 
went into a business making lunches and muffins and then going 
around to businesses in office buildings and selling them.
    Seven years after that one plane flight, one of the guys 
that was in the drug deal was caught doing something else and 
the prosecutor said: Can you give us anybody else?
    So they gave him Jerry. Jerry was prosecuted and got a 5-
year sentence. Now that 5-year sentence did not stop one ounce 
of drugs from coming into the country. He was out of the 
business already. But that ran up the score.
    The second thing was a fellow named Gordon, a family farmer 
from, I think he was from Montana, or Idaho. He was from Idaho, 
and his family farm was in trouble. So he began to grow a 
little pot and sell it on the side.
    A girl that he knew, wasn't dating, but was beaten up by 
her boyfriend, and he gave her his gun to help protect herself. 
She was caught doing drugs, and of course the same thing, the 
prosecutor said: Can you give us anybody else? Oh, yeah, yeah, 
Gordon.
    So she came, set up a deal to buy marijuana from him. At 
the buy she gave him the gun back. His sentence without the gun 
would have been a few months in prison. With the gun, it was a 
mandatory 5-year minimum.
    Gordon didn't bring the gun to the buy. The prosecutors 
instructed the girl to bring it, which then set up the 5-year 
sentence. Setting up the gun charge did not prevent any more 
drugs from getting on the street, but it destroyed Gordon and 
his family.
    Those prosecutors were looking for numbers to look like 
they were tough on crime. It would be better if they were held 
accountable for how their prosecutions stopped the flow of 
drugs into our cities.
    One last thing. The crack/powder dispute should not be at 
the Federal level. Crack is sold on the local level on the 
street because it is chemically unstable and can't be 
transferred far. It is cooked and sold on the street. That is 
something the local police can handle.
    The Federal Government should be focusing their 
prosecutions on the people who are transporting huge amounts of 
cocaine into the country and across State lines. That is where 
we ought to put our Federal effort, not busting little boutique 
street markets which sell small amounts of crack on the street.
    Senator Casey. I know I am over, but I would just say by 
way of comment, if we have time before we go, and I will try to 
ask more, but I really appreciate the focus here on what I will 
call re-entry, the process of leaving prison and how we have 
not thought nearly enough about it and do not have policies in 
place to prepare people for the exit into our society, and the 
numbers on--the number of felons released per day and the idea 
that we can just release them without any kind of preparation 
for them and expect them to make it in society.
    That is a challenge that I think we have in the Federal 
Government, and State governments have that challenge as well.
    But Senator Webb has the time I have borrowed from him.
    Senator Webb. Thank you, Senator Casey.
    I am going to ask another question, but if you care to.
    Senator Casey. I think I have to run.
    Senator Webb. OK.
    Senator Casey. Thank you, very much.
    Senator Webb. We appreciate your being here.
    I would like to throw something out again that came from 
the observations that I made when I was looking at the Japanese 
prison system years ago.
    One is, if you were sentenced to 4 or 5 years in a Japanese 
prison, you had really done something wrong. The sentencing in 
Japan is very short. They focus on solving a crime. They focus 
on catching the criminal.
    But once the criminal is caught, once the process has gone 
forward, the length of sentence is not as important as having 
brought some resolution to the process.
    The other thing that they did was they had two different 
categories of prisons. They did not do this by nature of the 
severity of a crime. They did it by whether you were a repeat 
offender.
    They had Category A prisons and Category B prisons. I do 
not know whether they still do this. But a Category A prison 
was a first offender. Any kind of first offender. And what they 
did in these prisons, the Category A prisons, is they focused 
on the prospect of re-entry.
    They gave serious skills classes. For instance, at that 
time, auto repair; today it probably would be computers. But 
when you got a certificate out of this process, it did not say 
``Fuchu (phonetic) Prison'' on it. It said ``Ministry of 
Labor'' on it.
    So when someone came out of that system, they had had one 
bite of the apple, and it was assumed that they were going to 
re-enter society and they had a productive certificate in their 
hand.
    Then they had Category B prisons. Even if you were 
convicted of shop lifting five times, you would go to the 
repeat offender prison and those people made paper bags. They 
worked. But they did basic, other types of jobs. They were 
populated very heavily by organized crime, the organized 
criminals, the aysans (phonetic), and those sorts of things.
    But that leads me to two questions. One is, do any of you 
have an opinion or a belief that length of sentence actually 
deters crime? I think obviously we do not want to give the 
wrong impression to people that we are trying to be soft on 
crime. There are certainly people who deserve to be locked up 
for a long period of time.
    But, (a), does the length of sentence actually deter crime?
    And (b), there has to be some other way of looking at a lot 
of these drug offenses. Let's be honest. Drug use is pandemic 
in the United States. Would you have thoughts on a different 
process for people involved in drug crimes, particularly crimes 
of possession or low-level sales?
    Dr. Loury. Yes, I would just say briefly that I think we 
should repeal mandatory minimum drug laws, and that we should 
release non-violent drug offenders, or at least mandate 
treatment for them both within prison and outside.
    I mean the point has already been made here that the public 
safety benefits of locking someone up for non-violent drug 
offending are de minimis. And the general question that Dr. 
Jacobson has I think done a good job of articulating of how to 
efficiently use our limited incarceration resources is raised 
here.
    I mean, it is also raised by Three Strikes' laws that hold 
people in prison beyond the time in their life cycle when they 
would be most likely to offend.
    The United States, I have heard someone say, is the only 
country in the world where prison gerontologist is actually an 
occupational title.
    Dr. Jacobson. The deterrence question is a fascinating 
question, and I am sure we could stay here all day and talk 
about it. I think most people who look at this stuff would say 
that the most important deterrent is swift apprehension and 
punishment.
    In fact, the length of time you serve, whether it is 3 
years or 6 years for sticking up a 7-11, is something people 
simply do not make rational calculations about. They don't 
think about it because they do not know it.
    Senator Webb. They don't think about, ``Am I going to get 
caught?''
    Dr. Jacobson. Correct. And most people do not think they 
are going to get caught. Most State legislators do not know the 
length of times for the crimes that they legislate. The public 
does not know it, although they have some sense that this is 
illegal; if I do it, I will go to prison; but there is 
absolutely no evidence that any marginal increase in going from 
a sentence of 3 to 4, 4 to 6, 8 to 10, or 10 to 20 has any 
benefit on general deterrence and keeping people from 
committing crimes--certainly not in relation to how quickly you 
might get apprehended and punished. Even if the punishment is 
10 percent of the sentence.
    And to further Dr. Loury's point, it's not just the Three 
Strikes law, and all these mandatory minimums, which is why we 
have geriatric prisons. We keep people well beyond their crime-
committing years, which does not do any good for specific 
deterrence. You're not getting anything from keeping that 
person in prison, and there is no evidence that you get that 
general deterrence either.
    So why we keep people in prison as our prisoners age into 
their sixties, seventies and eighties, which is happening in 
almost every State, is an interesting question. It is all about 
retribution and punishment. And you can understand that at some 
level if you are the victim or the victim's family of some of 
the crimes that those people might have committed. But we 
should just be clear about that discussion.
    It is not about public safety. We do not keep people in 
prison when they are in their sixties, seventies and eighties 
for public safety. It has absolutely nothing to do with that, 
and there are huge costs to doing that.
    Mr. Nolan. Both Dr. Loury and Dr. Jacobson are absolutely 
right. Prisoners are not rational calculators. They do not 
think they will get caught. If they thought they would get 
caught, they would seriously consider the sentences.
    Most of the folks I met in prison thought they were smarter 
than everybody. They never thought they would get caught.
    Secondly, because we have scarce resources our system 
focuses on the broken law. Prison Fellowship supports 
restorative justice in which you look at the harm done to 
victims and to the community, and you weigh that. Under 
restorative justice, the system weighs the relative costs to 
society of imprisoning an offender, versus the harm they have 
done. Possessing drugs does not do great harm to society. 
Shooting a bystander at 7-11 does. That is what the public 
worries about.
    As far as how to deal with drug possession, treatment is so 
much more effective than incarceration. Dr. Joe Califano, 
former Secretary of HEW, who is at Columbia University, said: 
To lock up an addict for 5 years, 10 years, 15 years, but do 
nothing about their underlying addiction, and then releasing 
them is a fraud. It is absolutely a fraud on the public.
    I also have a suggestion for you, Mr. Chairman. If you 
could have the staff of this Joint Economic Committee do a 
study of the economic impact of mass incarceration, one thing 
is the effect on the economy and the effect on national 
defense.
    With such a huge swath of young men limited in their 
employability and income after prison--you can see the studies 
that show that--and impaired with a conviction, they are not 
able to participate in the economy, buy cars, et cetera, and 
they also cannot join the military.
    Senator Webb. That's one of the principal objectives of 
this hearing--its economic impact, and we do intend to continue 
to focus on that.
    Mr. Nolan. I just compliment you so much for this.
    Senator Webb. Dr. Western?
    Dr. Western. So, time served has increased enormously over 
the last 20 years, so people are serving longer and longer, and 
estimates attribute about a third of the increase in State and 
Federal prison populations, to an increase in time served.
    And you see this in the penal codes, with a much greater 
reliance on life sentences. My reading of the research is 
exactly the same as Dr. Jacobson's. It's not the severity of 
the sentence that deters, it's the certainty of apprehension, 
and this is reflected in the effects of the increase in the 
number of police on the reduction in crime through the 1990s.
    That was the big driver of the crime drop, was the very 
large increase in the number of sworn officers on the street in 
large urban areas.
    On drug possession, through the 1970s and 1980s, I think we 
can say that drug dealing became a shadow economy, and informal 
economy in poor neighborhoods, and a context in which there 
were very few legitimate opportunities, and also in a context 
in which the problems of drug addiction were becoming more 
severe.
    So we could have treated what was a social and economic 
problem, in several different ways: We could have used social 
and economic policy instruments to address the development of 
this shadow economy in poor neighborhoods, but we chose to 
adopt a punitive approach that relied heavily on the criminal 
justice system.
    It's not too late to adopt social and economic policy 
measures to reduce the problems associated with this shadow 
economy, and I think employment policy and measures for drug 
treatment have to be significant parts of what an alternative 
policy approach would look like.
    Senator Webb. Thank you. Does anyone else care to comment?
    [No response.]
    Senator Webb. I would like to thank all of you for having 
taken the time to be with us today. I hope we have begun a 
process here where we can start shedding the right kind of 
light on this enormously complicated issue.
    On the one hand, I don't think there are any of us who 
would like to see improper enforcement of the laws. There are 
people who truly deserve to be in prison.
    Again, as I said during my opening statement, we want to be 
able to break the back of gangs in this country and to deter 
those types of conduct that can be deterred.
    At the same time, I hope, from this hearing, a number of my 
colleagues and people in the community can understand a little 
bit better the dynamic that has taken over this issue, which is 
an unhealthy dynamic for our country.
    I intend to continue to focus on this, and I welcome all of 
your input, not only today, but in the future, to my staff.
    We intend to see what we can do to rebalance the scales in 
this country.
    Again, thank you very much for appearing with us today, and 
we appreciate your testimony very much. This hearing is closed.
    [Applause.]
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                       Submissions for the Record

=======================================================================

                 Prepared Statement of Senator Jim Webb
    I would like to thank Chairman Schumer for agreeing to hold this 
important hearing and allowing me the opportunity to chair it. I would 
also like to thank our witnesses for appearing today. Following my 
remarks, I would ask Vice-Chair Maloney and Senator Brownback to make 
their opening statements.
    Over the course of the period from the mid-1970s until today, the 
United States has embarked on one of the largest public policy 
experiments in our history, yet this experiment remains shockingly 
absent from public debate: the United States now imprisons a higher 
percentage of its citizens than any other country in the world.
    In the name of ``getting tough on crime,'' there are now 2.1 
million Americans in federal, state, and local prisons and jails--more 
people than the populations of New Mexico, West Virginia, or several 
other states. Compared to our democratic, advanced market economy 
counterparts, the United States has more people in prison by several 
orders of magnitude.
    All tolled, more than 7 million Americans are under some form of 
correction supervision, including probation and parole.
    America's incarceration rate raises several serious questions. 
These include: the correlation between mass imprisonment and crime 
rates, the impact of incarceration on minority communities and women, 
the economic costs of the prison system, criminal justice policy, and 
transitioning ex-offenders back into their communities and into 
productive employment. Equally important, the prison system today calls 
into question the effects on our society more broadly.
    As Winston Churchill noted in 1910, ``The mood and temper of the 
public in regard to the treatment of crime and criminals is one of the 
most unfailing tests of the civilization of any country.'' With the 
world's largest prison population, our prisons test the limits of our 
democracy and push the boundaries of our moral identity.
    The growth in the prison population is only nominally related to 
crime rates. Just last week in the Washington Post, the deputy director 
of the Bureau of Justice Statistics stated that ``the growth [in the 
incarceration rate] wasn't really about increase[ed] crime but how we 
chose to respond to crime.''
    The steep increase in the number of people in prison is driven, 
according to most experts, by changes in drug policy and tougher 
sentencing, and not necessarily an increase in crime. Also, the 
composition of prison admissions has shifted toward less serious 
offenses: parole violations and drug offenses. Nearly 6 in 10 persons 
in state prison for a drug offense have no history of violence or 
significant selling activity. In 2005, four out of five drug arrests 
were for possession and only one out of five were for sales.
    Is incarcerating low-level drug offenders working, particularly 
given recidivism rates?
    The racial composition of America's prisons is alarming. Although 
African Americans constitute 14 percent of regular drug users, they are 
37 percent of those arrested for drug offenses, and 56 percent of 
persons in state prisons for drug crimes. African Americans serve 
nearly as much time in federal prisons for drug offenses as whites do 
for violent crimes.
    A black male who does not finish high school now has a 60 percent 
chance of going to jail. One who has finished high school has a 30 
percent chance. We have reached a point where the principal nexus 
between young African-American men and our society is increasingly the 
criminal justice system.
    Moreover, we are spending enormous amounts of money to maintain the 
prison system. The combined expenditures of local, state, and federal 
governments for law enforcement and corrections personnel total over 
$200 billion. Prison construction and operation has become sought 
after, if uncertain, tools of economic growth for rural communities.
    Are there ways to spend less money, enhance public safety, and make 
a fairer prison system?
    Having such a large prison population also has significant 
employment and productivity implications. The economic output of 
prisoners is mostly lost to society while they are imprisoned. These 
negative productivity effects continue after release. As we've gotten 
tough on crime, we've given up on rehabilitating offenders. And we've 
created additional barriers to reentry with ``invisible punishments.'' 
These include ineligibility for certain government benefits, such as 
housing, public assistance, or student loans. It is no longer possible 
to pay your debt to society.
    We want to keep bad people off our streets. We want to break the 
back of gangs, and we want to cut down on violent behavior. But there's 
something else going on when we're locking up such a high percentage of 
our people, marking them at an early age and in many cases eliminating 
their chances for a productive life as full citizens. It will take 
years of energy to address these problems. But I am committed to 
working on a solution that is both responsive to our needs for law and 
order, and fairer to those ensnared by this system.
    I welcome the thoughts of our witnesses today regarding these 
important topics, and a continuing national dialogue to address these 
enormous policy issues.
    I would like to introduce today's witnesses:
    Professor Glenn Loury is the Merton P. Stoltz Professor of the 
Social Sciences at the Department of Economics at Brown University. He 
has taught previously at Boston, Harvard and Northwestern Universities, 
and the University of Michigan. Mr. Loury is a distinguished academic 
economist who has contributed to a variety of areas in applied 
microeconomic theory and written on racial inequality.
    Professor Bruce Western is the Director of the Multidisciplinary 
Program in Inequality and Social Policy at the Kennedy School of 
Government. He taught at Princeton University from 1993 to 2007. Dr. 
Western's work has focused on the role of incarceration in social and 
economic inequality in American society. He is the author of Punishment 
and Inequality in America, a study of the growth and social impact of 
the American penal system.
    Alphonso Albert is the Director of Second Chances, in Norfolk, 
Virginia, a program designed to provide comprehensive support services 
that lead to full-time employment and social stability for those 
individuals impacted by the stigma of being labeled ``ex-offender.'' 
Prior to working with the Second Chances Program, Mr. Albert served as 
the Assistant Director and Business Liaison for the City of Norfolk's 
Enterprise Community initiative, Norfolk Works Inc.
    Michael P. Jacobson is the director of the Vera Institute of 
Justice. He is the author of Downsizing Prisons: How to Reduce Crime 
and End Mass Incarceration. Prior to joining Vera, he was a professor 
at the City University of New York Graduate Center and the John Jay 
College of Criminal Justice. He has served as New York City's 
Correction Commissioner, Probation Commissioner, and Deputy Budget 
Director.
    Pat Nolan is the Vice-President of Prison Fellowship, where he 
focuses on efforts to ensure that offenders are better prepared to live 
healthy, productive, law-abiding lives on their release. He served 15 
years in the California State Assembly, four of them as the Assembly 
Republican Leader. Mr. Nolan has appeared before Congress to testify on 
matters such as prison work programs, juvenile justice and religious 
freedom.
    Witnesses should please limit their remarks to five minutes, 
although their entire statements will be entered into the record. After 
all the witnesses have presented their testimony, we will move to 
questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Prepared Statement of Carolyn Maloney, Vice Chair
    Good morning. I would like to thank Chairman Schumer for holding 
this hearing to examine the economic, political, and social costs of 
incarceration. I also want to thank Senator Webb for chairing.
    The United States has the highest incarceration rates in the world, 
with more than 2 million Americans currently in jails or prisons. 
Clearly, imprisonment benefits society and is an important public 
safety measure. But faced with an unprecedented increase in 
incarceration, we must ask ourselves whether we are striking the right 
balance between the costs and benefits of imprisonment.
    Putting more resources into creating economic opportunities that 
provide alternatives to crime would pay dividends in reducing crime and 
incarceration, while also strengthening families and communities.
    We all know that in the long run crime doesn't pay, but it sure is 
costly. The average annual cost of incarceration for one federal 
prisoner exceeds $20,000--far more than the average annual cost of 
$3,700 for a youth program, $6,000 for a job training program or the 
$13,000 for tuition at public universities.
    There is no question that crime rates have dropped in the U.S. over 
the past decade. Researchers agree that the increase in incarceration 
rates have been driven by tougher sentences for repeat offenders and 
drug offenders, mandatory minimums, and a more punitive approach to 
post-release supervision, rather than an increase in crime.
    The racial dimension of incarceration is inescapable. Half of our 
prison population is African American, yet they represent just 13 
percent of the population as a whole. It has become a sad truth that a 
black man in his late twenties without a high school diploma is more 
likely to be in jail than to be working. The effect on black 
communities has been devastating.
    As noted Harvard sociologist Orlando Patterson wrote in the New 
York Times recently, one in three African American males in their 30s 
now has a prison record. He somberly noted, ``These numbers and rates 
are incomparably greater than anything achieved at the height of the 
Jim Crow era.''
    Women are typically convicted of nonviolent offenses. Most women 
who enter the criminal justice system have experienced physical or 
sexual abuse, and many have physical or mental health problems. These 
inmates may actually benefit from alternatives to imprisonment, such as 
suspended sentences coupled with extensive counseling.
    When mothers are incarcerated, their children may be placed in 
foster care, or with other family members who then need financial 
assistance to provide for the children. Moreover, the removal of a 
significant family member can affect the healthy development of 
children.
    The Catholic Charities Diocese of Brooklyn and Queens operate a 
week-long summer camp that provides opportunities for incarcerated 
mothers to have quality time with their children. Such programs serve 
as a means to maintain family bonds, and possibly provide a smoother 
transition and resumption of parental responsibilities upon release. If 
this program shows success, it could serve as a model for the nation.
    Providing employment and training assistance for ex-offenders is 
critical to reducing barriers to employment, and it benefits families. 
I support the Second Chance Act of 2007, which provides grants for re-
entry programs that provide mentoring, academic and vocation education, 
and employment assistance, and substance abuse treatment for ex-
offenders.
    I look forward to hearing from our distinguished panel about how 
best to protect public safety, while addressing the many costs of 
imprisonment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chairman, thank you for holding this important hearing 
regarding ``Mass Incarceration in the Unites States: At What Cost?''
    As you know, for some time, I, along with my colleagues on the 
judiciary committee, have been working extremely hard to enact 
legislation that will have a positive effect upon our prison system, 
the Recidivism Reduction and Second Chance Act of 2007.
    It goes without saying that we have a broken prison system--and the 
results are devastating not only to those incarcerated and their 
families but to society as a whole.
    This year alone, more than 650,000 inmates will be released from 
prison, and studies show that approximately two-thirds will likely be 
rearrested within three years of release.
    The economic effects of our broken system are staggering and leave 
our state and local governments financially vulnerable.
    State corrections systems across the country have experienced 
tremendous growth since 1980. Between 1980 and 2005, the total number 
of adults under corrections supervision (prisons, jails, probation, and 
parole) increased 283 percent from approximately 2 million in 1980 to 
more than 7 million in 2005. Likewise, state spending on corrections 
has grown faster than nearly any other state budget item--increasing 
from $9 billion in 1984 to $41 billion in 2004.
    A recent report from the Pew Charitable Trusts revealed that the 
Nation's prison population is projected to grow an additional 13 
percent over the next five years. State and federal prison populations 
are expected to add approximately 192,000 persons at a cost of $27.5 
billion between 2006 and 2011.
    It is time that we fix this broken system. It is time that we 
invest federal dollars wisely on programs that are successful in 
reducing the rates of recidivism for the program participants.
    For too long, we have stood back and watched this situation 
deteriorate. I am pleased that there are States, such as Kansas, that 
are leading the way in innovative reentry programs with great success.
    In 2007, the Kansas prison population was projected to grow 26 
percent by 2016 at a cost to taxpayers of $500 million in additional 
construction and operating costs. High rates of failure among people on 
community supervision and low rates of in-prison program completion 
were identified as key factors driving the growth.
    During the 2007 Session, Kansas policymakers overwhelmingly enacted 
a legislative package that is expected to avert the need to build 
nearly 1,300 new prison beds and to save the state $80 million over the 
next five years.
    Mr. Chairman, we need to encourage such innovation and build upon 
the experiences of States such as Kansas in order to reduce crime and 
re-arrest and incarceration rates.
    Although States have taken the first step in designing strategies 
to avert growth in their prison populations and corrections 
expenditures, they will need the support of the federal government 
going forward.
    The role of the federal government in state and local re-entry must 
be limited, but can still have a significant impact.
    I am pleased that our federal agencies have taken the lead and are 
collaborating on programs designed to increase public safety while 
providing services to inmates, which will, in turn, decrease 
recidivism.
    Through legislation such as the Recidivism Reduction and Second 
Chance Act of 2007, small amounts of federal dollars can help to 
encourage innovation in re-entry, reduce recidivism and establish 
standards of performance.
    In addition to the public response, organizations such as Prison 
Fellowship Ministries have led the way in providing non-profit 
assistance and I am pleased the Pat Nolan, Vice-President of Prison 
Fellowship Ministries is joining us today. These organizations are 
doing wonderful work in treating the ``whole person''--this is 
beneficial to both inmates and their families and has transformed the 
lives of those who are incarcerated.
    However, we must not stop here. We must continue to move toward 
rectifying the recidivism rates in this country.
    Additionally, family environments need to be improved so that 
children are brought up under more stable conditions. Children who come 
from fatherless homes are 20 times more likely to be incarcerated and 
children who do not graduate high school are 3.5 times more likely to 
be incarcerated.
    We can no longer set idly by and watch while ex-offenders and their 
families deteriorate--especially the children of those incarcerated--
which not only leads to hardships for the ex-offenders and their 
families, but to society as a whole.
    We must support programs that provide public safety, reduce the 
cost of recidivism on States, and provide for a second chance for ex-
offenders and their families. I look forward to hearing the statements 
from today's witnesses.
                               __________
 Prepared Statement of Congressman Robert C. ``Bobby'' Scott, Chairman 
    for the Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you, Mr. Chairman. And thank you, Chairman Webb and Vice 
Chairwoman Maloney for the opportunity to be with you today as we 
discuss this very important subject of the cost of the mass 
incarceration we have in the United States. Today, the U.S. is the 
world's leading incarcerator, by far, with an average incarceration 
rate over 7 times the international average. The average incarceration 
rate in the rest of the world is about 100 per 100,000 citizens. The 
rate in the U.S. is over 700 per 100,000 residents, and in some inner-
city communities, the rate goes over 4,000 per 100,000. Russia is the 
next closest in rate of incarceration with 611 per 100,000 citizens. 
Everybody else is much below, such as India, the world's largest 
Democracy, with 30 per 100,000 and China, the world's largest country 
by population, with a rate 118 per 100,000.
    We didn't get to this position overnight. I have learned that when 
it comes to crime policy, you have a choice--you can reduce crime or 
you can play politics. The politics of crime call for so-called ``tough 
on crime'' approaches such as more life without parole, mandatory 
minimum sentences, and treating more juveniles as adults or gang 
members. Under the get tough approach, no matter how tough you were 
last year, you have to get tougher this year. We have been getting 
tougher year-by-year for over 30 years now. Since 1970, we have gone 
from around 300,000 persons incarcerated in the U.S. to over 2 million, 
and annual prison costs now are over $65 billion this year.
    And the U.S. has some of the world's most severe punishments for 
crime, including for juveniles. Of the more than 2200 juveniles 
sentenced to life without parole, all but 12 are in the U.S.
    Research and analysis, as well as common sense, tell us that no 
matter how tough you are on the people you prosecute for crime today, 
unless you are addressing the reasons they got to the point to commit 
the crimes in the first place, the next wave developing in the system 
will simply replace the ones you take out and crime continues. This is 
not to say that we shouldn't prosecute crimes or that imprisonment has 
no impact. The problem is that you reach the point of diminishing 
returns in a particular case with no appreciable benefit. In fact, you 
run the risk of it diminishing returns to the point of actually being 
counterproductive, such as when you have so many in a neighborhood with 
criminal records that a criminal record no longer represents a stigma 
or provides an effective deterrent to crime.
    A corollary cost of the mass incarceration resulting from ``tough 
on crime' politics is the fact that it falls in a grossly 
disproportionate manner on minorities, particularly Black and Hispanic 
youth. The sad reality is that many children born in minority 
communities today are, from birth, without an appropriate intervention, 
on a ``cradle to prison pipeline''. When we see how simple it is to get 
them on a ``cradle to college pipeline'', it is tragic, and much more 
costly to society, economically and socially, if we don't do so. There 
are also other costs to consider when crime rates are high, such as the 
medical costs associated with gun crimes. One study estimated the 
annual cost of gun violence in the U.S. to be $100 billion.
    Fortunately, we have a choice. All the credible research and 
evidence shows that a continuum of evidenced-based programs for youth 
identified as being at risk of involvement in delinquent behavior, and 
those already involved, will not only put kids on an appropriate 
``pipeline'', but will save much more than they cost when compared to 
the avoided law enforcement, prison and other costs. Washington State 
did an extensive study showing that evidenced-based prevention and 
rehabilitation programs reduce crime and save money when compared to 
waiting for crimes to be committed and sending offenders to prison. 
Washington State adopted many of these initiatives and consequently has 
avoided the necessity of building new, expensive prisons. The question 
is whether we have the political will to make that choice. Washington 
made that choice, adopted the policy, avoided building more prisons, 
and reduced crime at the same time.
    There is also a huge opportunity cost to not doing what research 
and evidence says will reduce crime. To illustrate, let's examine the 
impact in Virginia of the lost opportunities associated with the tough 
on crime sound byte ``abolish parole''. Rather than invest in proven 
crime reduction measures that work, Virginia chose to go down the 
costly and wasteful path of abolishing parole. Despite the proponents 
claim, even if it worked perfectly, the reduction in violent crime 
would be a statistically insignificant 3 percent, and even that would 
be without considering the counterproductive effects of no parole, such 
as the fact that you can't hold hardened criminals longer and the loss 
of an incentive for prisoners to get an education and job training 
while in prison. They estimated the cost of abolishing parole was $2.2 
billion to build new prisons and about a billion in annual operating 
costs. Doing some back of the envelope arithmetics, let's see what we 
can do with that kind of money. There are 11 Congressional districts in 
Virginia, so that's about $200 million for construction and about $90 
million for operations per Congressional district of 600,000 people. So 
for a city of around 100,000, you're talking about more than $30 
million for construction and $15 million operating.
    Alternatively, here's what you could do with that kind of money in 
a small city:
------------------------------------------------------------------------------------------------------------------------------------------------
Construction:
10--$3 million Boys and Girls Clubs or      30M
 family resource center.
Operating:
10 clubs or centers @ $600,000/yr.........  6M
1,000 summer jobs @ $1,000................  1M
1,000 summer camp scholarships @ $1,000...  1M
4,000 after school programs @ $250........  1M
2,000 college scholarships @ $2,000.......  4M
Services for 200 juveniles @ $10,000/year.  2M
------------------------------------------------------------------------


    So you can spend money codifying a slogan without knowing whether 
you are reducing or increasing crime or you can spend the same amount 
of money, or even less, on evidenced-based prevention programs and 
rehabilitation programs proven to reduce crime.
    Of course, having so many people locked up, we are now seeing a 
huge number returning to our communities, in most cases no better off 
then when they left and, in all too many cases, much worse. This year, 
more than 650,000 people will be released from state and federal 
prisons, along with more than 9 million people leaving local jails. 
According to the Department of Justice's Bureau of Justice Statistics, 
some 67 percent of offenders leaving state and federal prison are 
rearrested within three years. Most offenders go into prison unskilled, 
poorly educated, and poorly motivated and over one-third of all jail 
inmates have some physical or mental disability. With no parole, no 
good conduct credits or other self-development incentives, limited 
vocational or other development programs in prison, and all the 
disqualifications that result from a felony record, it is not hard to 
see why the recidivism rate is so high.
    One program in the federal prison system that has proven to be a 
huge incentive program for not only good conduct and safer, easier to 
manage prisons, and getting an education required to qualify for it, 
but has also for developing work skills proven to increase employment 
after release and reduce crime, is the Federal Prison Industries, or 
FPI program. Unfortunately, a provision in the just passed Senate 
Defense Authorization bill essentially guts the FPI program.
    The Second Chance Act now pending before the Congress provides a 
host of evidenced-based approaches designed to reduce the high rate of 
recidivism now occurring. If we are going to continue to send more and 
more people to prison with longer and longer sentences, we should do as 
much as we reasonably can to assure that when they do return they don't 
go back to prison due to new crimes. The primary reason for doing so is 
not to benefit offenders, although it does--the primary reason for 
doing so is to better assure that all of us and other members of the 
public will not be victims of crime due to recidivism and to save the 
high cost of law enforcement and incarceration. Again, Mr. Chairman, I 
would like to thank you for holding this very important hearing and for 
inviting me to sit with you for it. Thank you.
Prepared Statement of Glenn C. Loury, Merton P. Stoltz Professor of the 
       Social Sciences, Department of Economics, Brown University

                 Mass Incarceration and American Values

    Mr. Chairman, Madam Vice-Chairwoman, and distinguished Members, I 
thank you for the opportunity to address this vital issue before your 
committee.
    There are six main points about the advent of mass incarceration as 
a crime control policy in the United States that I wish to make with 
this testimony:

    1. First, I wish to emphasize that with the advent of the mass 
incarceration policy we have witnessed an historic expansion of 
coercive state power, deployed internally on a massive scale. Violent 
crime peaked in the early 1990s, and began what has proven to be a 
long, precipitous decline. (See the Figure below. A similar trend 
applies for non-violent property crimes.) But, no one saw this coming. 
Crime was a real problem two decades ago, and fighting a war on crime 
was bipartisan national policy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As a result of this policy, the American prison system has grown 
into a leviathan unmatched in human history. Never has a supposedly 
``free country'' denied basic liberty to so many of its citizens. As of 
December 2006, some two-and-one-quarter million persons were being held 
in the nearly 5,000 prisons and jails that are scattered, like an 
archipelago, across America's urban and rural landscapes. Incarceration 
is now being used in the United States on an unprecedented scale. We 
imprison at a far higher rate than any other industrial democracy in 
the world. We imprison at a higher rate than Russia or China, and 
vastly more than any of the countries in Europe.
    And, it is costing us a veritable fortune. Spending on law 
enforcement and corrections at all levels of government now totals 
roughly a fifth of a trillion dollars per year. In constant dollars, 
this spending has more than quadrupled over the last quarter-century. 
The table below indicates how this spending breaks-down by function:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    2. Second, I claim that this high level of imprisonment is not any 
longer, if ever it was, a rational response to high levels of crime. 
Rather, our mass incarceration policy is an historical inheritance, 
bequeathed to us by wave after wave of crime-fighting at the state and 
the federal levels over the past 35 years. This policy response, I 
firmly believe, has now become counter-productive. (The so-called War 
on Drugs, about which I have more to say at the end of this testimony, 
is a leading example of one such misconceived policy initiative that 
now has us in its grip.)
    3. Third, I wish to point out that institutional arrangements for 
dealing with criminal offenders in the United States have evolved to 
serve expressive as well as instrumental ends. We have wanted to ``send 
a message''--to the criminals and to the law-abiding public, alike--
and, have done so with a vengeance. In the process, we have answered 
the question: Who is to blame for the maladies which beset our troubled 
civilization? We have, in effect, constructed a national narrative. We 
have created scapegoats, indulged our need to feel virtuous about 
ourselves, and assuaged our fears. We have met the enemy, and the enemy 
is THEM--the violent, predatory, immoral, irredeemable ``thugs.'' I 
believe that this narrative, which supports and encourages our embrace 
of the policy of mass incarceration is, itself, a sociologically naive 
and morally superficial view.
    4. Fourth, I wish to observe that these people who have offended 
against our laws are nevertheless human beings. And, while they may 
deserve punishment, imprisoning them is something that We the People of 
the United States of America are doing. Indeed, punishment is one of 
the most politically salient things that we do in a democracy: the 
state is forcibly depriving citizens of their liberty. And, while this 
practice is necessary for the maintenance of order in society, it 
should always be done humanely, in a manner that comports with our 
deepest political values. We ought never to lose sight of the essential 
humanity of those whom we punish--and, of the humanity of those to whom 
offenders are connected via intimate ties of social and psychic 
affiliation. Unfortunately, we have not always lived up to this high 
standard. Thus, Confronting Confinement, a report released last year 
from the Commission on Safety and Abuse in America's Prisons (of which 
former US Attorney General Nicholas Katzenback was co-chairman), found 
that our penal institutions are (i) dangerously overcrowded, that (ii) 
they rely overly much on physical isolation to manage the behavior of 
inmates (a practice which, the Commission found, can have a lasting 
adverse effect on the prisoners' mental health), and that they are 
horribly, unnecessarily violent. The report estimates that more than 
1.5 million people annually are released from prisons and jails with a 
life-threatening infectious disease--the HIV, drug-resistant staph 
infections, hepatitis-C, and tuberculosis; and, that at least one out 
of every six prisoners--over 350,000 people on a given day--are 
``seriously mentally ill.''
    5. Fifth, I must call attention to a huge gap between the races in 
the incidence of punishment which exists in our country. Black 
Americans and Hispanics together account for about one-quarter of the 
overall national population, but constitute about two-thirds of state 
and federal prison populations. The extent of racial disparity in 
imprisonment rates is greater than in any other major arena of American 
social life: at eight-to-one, the black-white ratio of incarceration 
rates dwarfs the two-to-one ratio of unemployment rates, three-to-one 
non-marital child bearing ratio, the two-to-one black-white ratio of 
infant mortality rates and one-to-five ratio of net worth. As the table 
below makes clear, more black male high school dropouts are 
incarcerated than belong to unions or are enrolled in all government 
social welfare programs, combined.

    Men Incarcerated (2000), in Unions, or in Social Programs (1996)
------------------------------------------------------------------------
                                            Whites   Hispanics   Blacks
------------------------------------------------------------------------
All men, age 20 to 40
In prison or jail........................     1.60%      4.60%    11.50%
In labor union...........................     9.70%     10.70%    11.50%
On welfare...............................     1.70%      1.40%     2.30%
In any program (including welfare).......     6.70%      4.90%    10.80%
Male high school dropouts, age 20 to 40
In prison or jail........................     6.70%      6.00%    32.40%
In labor union...........................     6.30%      8.10%     2.30%
On welfare...............................     6.20%      1.70%     3.70%
In any program (including welfare).......    17.90%      6.30%    24.00%
------------------------------------------------------------------------
* Survey of Incomes and Program Participation (1996)


    The scandalous fact of the matter is that the primary contact 
between poorly educated black American men of a certain age and the 
American state is via the police and the penal apparatus. For instance, 
among black male high school dropouts ages 20 to 40, a third were under 
lock and key on a given day in the year 2000, while fewer than 3 
percent belonged to a union, and less than one-quarter were enrolled in 
any kind of social program (according to Harvard University 
sociologist, Bruce Western.) The coercive aspect of government is the 
most salient feature of their experience of the public sector. Western 
estimates that some 58 percent of black male dropouts born between 1965 
and 1969 were sent to prison on a felony offense at least once before 
reaching the age of 35.
    For these men, and the families and communities with which they are 
associated, the adverse effects of incarceration will extend beyond 
their stays behind bars. To see how the post-1980 prison boom affected 
Americans differently, depending on their race and their social class, 
consider two birth cohorts of black and white men. The first cohort was 
born in 1945 to 1949, just after World War II. These individuals 
reached their mid-thirties by 1970, just before the rapid increase in 
imprisonment rates. The second cohort was born during the Vietnam War, 
from 1965 to 1969, and reached their mid-thirties during the height of 
the prison boom. The table below compares the imprisonment experience 
of these two cohorts, broken down by race and level of education:

                                         Cumulative Risk of Imprisonment
----------------------------------------------------------------------------------------------------------------
                                                     All       Less than    HS or GED       All          Some
                                                -------------      HS     -------------  Noncollege    College
                                                             -------------             -------------------------
                                                     (1)          (2)          (3)          (4)          (5)
----------------------------------------------------------------------------------------------------------------
White men
Born 1945 to 1949..............................          1.4            4            1          2.1          0.5
Born 1965 to 1969..............................          2.9         11.2          3.6          5.3          0.7
Black men
Born 1945 to 1949..............................         10.5         17.1          6.5           12          5.9
Born 1965 to 1969..............................         20.5         58.9         18.4         30.2          4.9
----------------------------------------------------------------------------------------------------------------


    Notice that the aggregate risk of imprisonment is twice as great in 
the later cohort--2.9 percent as compared to 1.4 percent for white men; 
and, 20.5 percent as compared to 10.5 percent for black men. Moreover, 
one can see from the table that the experience of incarceration for 
poorly educated black men is estimated to be four times more prevalent 
in the later than in the earlier cohort--58.9 percent as compared to 
17.1 percent. The massive scale of this policy shift is stunning. To 
repeat: there is a nearly three-fifths chance that a black male with 
less than HS diploma born between 1965-69 will have gone to prison or 
jail at least once prior to reaching age 35.
    A fundamental point to bear in mind is that the experience of 
prison feeds-back to affect the life course of those incarcerated in an 
adverse manner. The vast majority of inmates return to society. The 
evidence that prison adversely affects the subsequent life chances of 
the incarcerated is considerable and impressive.

                 Table 5.2--Wages, Employment, Earnings
------------------------------------------------------------------------
                                                  Incarceration Status
                                              --------------------------
                                                Never    Before   After
------------------------------------------------------------------------
Hourly wages (dollars per hour)
White........................................     14.7    11.14     11.8
Hispanic.....................................    13.59     12.3    10.31
Black........................................    12.34    10.25     9.25
Annual employment (weeks per year)
White........................................       44       37       23
Hispanic.....................................       43       35       24
Black........................................       40       35       21
Annual earnings (thousands of dollars per
 year)
White........................................    26.44     13.7     9.76
Hispanic.....................................     23.9    13.29     9.14
Black........................................    20.37    13.34     7.02
------------------------------------------------------------------------


    The table above reproduces Harvard University sociologist Bruce 
Western's (admittedly crude but suggestive) estimates of the impact of 
imprisonment on subsequent labor market outcomes. Hourly wages of 
incarcerated black men are 10 percent lower after prison than before. 
And weeks worked per year of all imprisoned men are down by \1/3\ or 
more after release, as compared with prior to their incarceration. Now, 
consider the nearly 60 percent of black male high school dropouts born 
in the late 1960s who will have been imprisoned before their fortieth 
year. For these men, their links to family have been disrupted; their 
subsequent work lives will be diminished; their voting rights are often 
permanently revoked. They will suffer, quite literally, a ``civic 
excommunication'' from American democracy. It is no exaggeration to say 
that, given our zeal for social discipline, these men will be consigned 
to a permanent, non-white, male nether caste. And yet, since these 
men--whatever their shortcomings--have emotional and sexual and family 
needs, including the need to be fathers and lovers and husbands--we 
will have created a bio-political situation where the children of this 
nether caste are likely themselves to join a new generation of 
untouchables.
    A central reality of our time is the fact that there has opened a 
wide racial gap in the acquisition of cognitive skills, the extent of 
law-abidingness, the stability of family relations, the attachment to 
the work force, and the like. This disparity in human development is, 
as a historical matter, rooted in political, economic, social, and 
cultural factors peculiar to this society and reflective of its 
unlovely racial history: it is a societal, not communal or personal, 
achievement. At the level of the individual case we must, of course, 
act as if this were not so. There could be no law, no civilization, 
without the imputation to particular persons of responsibility for 
their wrongful acts. But the sum of a million cases, each one rightly 
judged on its merits to be individually fair, may nevertheless 
constitute a great historic wrong. The state does not only deal with 
individual cases. It also makes policies in the aggregate, and the 
consequences of these policies are more or less knowable. And who can 
honestly say--who can look in the mirror and say with a straight face--
that we now have laws and policies that we would endorse if we did not 
know our own situation and genuinely considered the possibility that we 
might be the least advantaged?
    6. Finally, I would like to make a few observations about the so-
called War on Drugs. This policy has not been successful in my view, 
and it has had a hugely disparate, adverse impact on the African 
American community. Consider the table below, showing the trend in drug 
arrest rates by race since 1970.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               drug arrests of blacks spike in late 80's
    Blacks were twice as likely as whites to be arrested for a drug 
offense in 1975, but four-times as likely (1,460 versus 365 per 
100,000) by 1989. For all of the 1990s, drug arrest rates remained at 
historically unprecedented levels. Yet, according to the National 
Survey on Drug Abuse (NSDA), drug use among adults fell from 20 percent 
in 1979 to 11 percent in 2000. A similar trend occurred for 
adolescents. In the age groups 12-17 and 18-25, usage of marijuana, 
cocaine and heroin all peaked at roughly the same time (in the late 
1970s), and began a steady decline thereafter (Tonry 2004, Figure 5.14, 
p. 132). Thus, a decline in drug use across the board had begun a 
decade before the War on Drugs was initiated.
    There are some interesting discrepancies between the racial gap in 
drug use and in drug arrests. In figure 2.2 (above) one can see that 
the drug arrest rate for blacks stood at twice the rate for whites in 
the late 1970s, rising to 4 times the white rate by 1990. On the other 
hand, figure 2.3 (below) reveals that throughout this period white high 
school seniors reported using drugs at a significantly higher rate than 
blacks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Presumably this relatively high rate of drug use in the early 80's 
in the mainstream of American society partially explains the urgency 
many felt to mount a national attack on the problem. Yet, how 
successful has the effort been, and at what cost?
    As the data below make clear, retail prices on the street of 
illicit drugs fell steadily and sharply throughout the period 1980-2000 
(with the exception of methamphetamine which experienced a price spike 
in the late 80's-early 90's), even as ``war mobilization'' caused drug 
incarceration rate to skyrocket:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[Source: Caulkins, Reuter and Taylor, ``Can Supply Restrictions Lower 
Price?'' Contributions to Economic Analysis and Policy Vol. 5 (2006)]
                            spatial effects
    What all this comes to is that, to save ``our'' middle class kids 
from the threat of their being engulfed by a drug epidemic that might 
not have even existed by the time drug incarceration began rapidly 
rising in the 1980s, we criminalized ``our'' underclass kids. Arrests 
went up and up, drug prices went down and down, and drug consumptions 
seems not to have been much impacted by the policy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    An interesting case in point is New York City. Columbia University 
criminologist Jeffery Fagan and his colleagues have analyzed data on 
arrests in various New York City residential neighborhoods and police 
precincts. They report that, 70 percent of state inmates in New York 
come from New York City. Between 1990 and 2003 the number of state 
prison inmates coming from the city rose from 55,000 to 70,000. The 
City also had an average daily jail population of nearly 18,000 in 
1999. ``Rates of incarceration in NYC have been largely unaffected by 
the city's dramatic declines in crime. Moreover, the increase in 
incarceration is in part ``attributable to aggressive enforcement of 
drug laws, especially street-level enforcement resulting in large 
numbers of felony arrests of retail drug sellers.'' They note that 
``drug-related offenses have accounted for an increasing proportion of 
prison admissions--up from 12 percent of state prison admissions in 
1985 to 31 percent in 1990, to 38 percent in 1996. Some 11,600 
residents of NYC entered the NY state prison system on drug-related 
offenses in 1996, compared to 9,345 in 1990.
    As the maps above make clear, incarceration was highest in the 
City's poorest neighborhoods though these were not in every instance 
the neighborhoods where crime rates were highest. Most interestingly, 
when these data were analyzed at the level of police precincts, the 
authors discovered a perverse positive feedback of incarceration on 
crime: higher incarceration in a given neighborhood seemed to predict 
higher crime rates one year later in that same neighborhood. They 
concluded that the growth and persistence of incarceration over time 
were due primarily to drug enforcement and to sentencing laws that 
require imprisonment for repeat felons. Police scrutiny was more 
intensive and less forgiving in neighborhoods high incarceration 
neighborhoods, and parolees returning to such neighborhoods were more 
closely monitored. This discretionary, spatially discriminatory police 
behavior led to a high and increasing rate of repeat prison admissions 
in the designated neighborhoods, even as crime rates fell.
    Further evidence along these lines can be found by examining the 
experience of anti-marijuana law enforcement. Comprehensive data on 
this have been collected for New York City by the Queens College 
sociologist Harry Levine and his colleagues, and are presented in the 
tables that follow. These data speak volumes about the racially 
discriminatory and spatially selective enforcement of anti-drug 
statutes. Bear in mind when viewing these data that U.S. Government 
statistics have consistently found that White teenagers and young 
adults use marijuana as much, or more, than Blacks and Hispanics do. 
Nonetheless, in 2006 in New York City, the per capita arrest rate of 
Blacks was nearly 8 times the rate of Whites.
    Again, I wish to express my gratitude to the Committee for this 
opportunity to present my reflections on this urgent matter of national 
policy.
                                 ______
                                 
           Responses by Dr. Glenn C. Loury to Questions from
                Representative Robert C. ``Bobby'' Scott
    Question 1. In your testimony, you state that high levels of 
imprisonment have become counterproductive. Please elaborate.
    Response. The three main reasons that I see the current high level 
of imprisonment as being counterproductive are as follows:
    1. Holding people in prison doesn't make them ``better.'' Rather, 
it makes them ``worse.'' Not only do we fail to rehabilitate criminals 
when they're in custody. Incarceration has a significant adverse impact 
on the employability (weeks work down by a third) and the earnings 
(wages off by 10 percent) of ex-convicts. They are ``scarred'' by the 
experience of prison. Their mental and physical health is negatively 
affected. Recidivism rates are such that nearly 50 percent of prisoners 
are returned to custody within three years of their release.
    2. The amount of public safety ``purchased'' for society by using 
prisons on the scale that we are now using them does not justify the 
cost incurred to hold prisoner behind bars, let alone the cost we're 
imposing on prisoners and the communities from which they come.
    The economist, Steven Levitt, estimates that more money spent on 
policing, and less on imprisonment, would lead to lower crime rates 
(Journal of Economic Perspectives, 2004). The conservative political 
scientist, John Dilulio, opined in the Wall Street Journal nearly a 
decade ago (March 12, 1999) that we were then overusing prison for 
crime control purposes, and that we should aim toward ``zero-growth in 
incarceration.'' Some ``tough on crime'' policies, like ``three strikes 
and you're out'' hold offenders behind bars for decades beyond the 
point in the lifecycle after which people cease to be a threat to 
society. Given the widespread problems of over-crowding and the huge 
pressure on state budgets due to the cost of running these mammoth 
prison systems, cell space devoted to holding non-violent drug 
offenders could be much more effectively utilized.
    3. Imprisonment on the scale which we are now undertaking, and that 
is so concentrated among the poorly educated, urban, racial minority 
male youth populations of our country, does not make the communities 
from which offenders are taken better, it makes them worse. A number of 
observers (see, for example, Fagan et al., ``Reciprocal effects of 
crime and incarceration in New York City Neighborhoods,'' Fordham Law 
Journal 2003) have noted that massive and spatially concentrated 
incarceration feeds-back to have a detrimental effect on the social 
climate in the communities to which inmates inevitably return. The 
legitimacy of law enforcement is weakened; the moral norms against 
offending are undermined; the stigma of imprisonment is eviscerated; 
the intensity of law enforcement scrutiny is enhanced. Fagan et al. 
actually find that New York City neighborhoods which experienced the 
highest rates of incarceration in one year were, other things equal, 
likely to experience higher rates of crime in future years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Prepared Statement of Bruce Western, Director, Department of Sociology, 
                           Harvard University
    Mr Chairman and Members of the Committee: thank you for the 
opportunity of testifying today about the causes and economic effects 
of the growth in the incarceration rate.

                       I. Trends in Incarceration

    The fraction of the population in state and federal prison has 
increased in every single year for the last 34 years. The rate of 
imprisonment today is now five times higher than in 1972.\1\ The US 
rate of imprisonment is five to ten times higher than in the 
longstanding democracies of Western Europe, and is only rivaled, though 
not exceeded, by the incarceration rates of South Africa and Russia.
---------------------------------------------------------------------------
    \1\ Pastore and Maguire (2007).
---------------------------------------------------------------------------
    Today's novel rates of incarceration are most remarkable for their 
concentration among young African American men with little schooling. 
While fewer than 2 percent of young white men, aged 22 to 30, were in 
prison or jail in 2004, the incarceration rate of young black men was 
13.5 percent (Table 1). Among young black men who had never been to 
college, 21.1 percent were locked up on an average day in 2004. At the 
bottom of the education ladder, I estimate that more than 1 in 3 black 
male high school dropouts were incarcerated in 2004.

       Table 1.--Incarceration rates for young men, 1980 and 2004.
------------------------------------------------------------------------
                                                 Whites        Blacks
                                             ---------------------------
                                               1980   2004   1980   2004
------------------------------------------------------------------------
Men Aged 22-30 in Prison or Jail (%)
All men.....................................    0.6    1.9    5.7   13.5
Without College Education...................    1.1    4.2    7.4   21.1
High School Dropouts........................    2.3    7.3   11.7   34.2
Men with Prison Records by Age 34 (%)
All men.....................................    1.2    2.8    9.0   22.8
Without College Education...................    1.8    5.1   12.1   30.9
High School Dropouts........................    4.2   14.8   14.7   62.5
------------------------------------------------------------------------
Note: Percentage of men with prison records are risks of imprisonment
  estimated for birth cohorts born 1945-1949 by 1979, and 1970-1974 by
  2004. Sources and methods are described in Western (2006).


    To examine the chances of going to prison over a lifetime, I also 
calculated the percentage of men who have ever been to prison by their 
mid-thirties. (Most prisoners will be admitted for the first time 
before age 35.) These percentages describe the prevalence of 
imprisonment, not jail incarceration--at least 12 months in a state or 
federal facility, and an average of 34 months of time served. For men 
born in the late 1940s who reached their mid-thirties in 1979, blacks 
were 9 percent likely to go to prison. For black men born in the late 
1960s, the lifetime chances of imprisonment had grown to 22.8 percent. 
Among black men without college education now in their early forties, 
nearly a third have prison records. For young black male dropouts, 
prison time has become a normal life event, affecting 60 percent of 
those born since the late 1960s. Young black men are now more likely to 
go to prison than to graduate college with a 4-year degree, or to serve 
in the military.\2\ These extraordinary rates of incarceration are new. 
We need only go back 20 years to find a time when the penal system was 
not pervasive in the lives of young African American men.
---------------------------------------------------------------------------
    \2\ Western (2006, 29).
---------------------------------------------------------------------------
    In the period of mass incarceration, blacks have remained 7 to 8 
times more likely to be incarcerated than whites. The large black-white 
disparity in incarceration is unmatched by most other social 
indicators. Racial disparities in unemployment (2 to 1), nonmarital 
childbearing (3 to 1), infant mortality (2 to 1), and wealth (1 to 5) 
are all significantly lower than the 7 to 1 black-white ratio in 
incarceration rates.\3\
---------------------------------------------------------------------------
    \3\ Western (2006, 16).
---------------------------------------------------------------------------

                       II. Invisible Disadvantage

    Because of high incarceration rates, conventional measures of 
economic well-being are optimistic for young unskilled black men. 
Conventional economic statistics, like wage and employment rates, are 
based only on the non-institutional population. For example, the 
employment-to-population ratio calculated from the monthly Census 
Bureau household survey, the Current Population Survey, significantly 
overstates employment rates. Figure 1 shows the employment-to-
population ratio for black men without college education, aged 22 to 
30. Taking the conventional approach and excluding prison and jail 
inmates from the population count, employment appears to have declined 
from 73 to 63 percent, from 1989 to 2004. Once prisoners are counted 
among the jobless in the population, the percentage employed among 
young low-education black men falls from 65 to 50 percent. Figure 1 
shows that employment rates for young non-college black men did not 
increase at all through the economic expansion of the late 1990s. The 
appearance of improved employment in the noninstitutional population 
was overshadowed by rising incarceration rates.

                   III. The Labor Market After Prison

    While mass incarceration creates a large pool of disadvantaged men 
who are invisible in conventional labor force statistics, it also 
diminishes the economic opportunities of those who are released. 
Researchers have found that men released from incarceration earn less 
and are employed less than similar men who have not been incarcerated. 
Estimates of the earnings loss associated with imprisonment range from 
10 to 30 percent.\4\ A few studies also report that youth detained in 
correctional facilities before age 20 have higher unemployment and 
receive lower wages a decade or longer after incarceration.\5\
---------------------------------------------------------------------------
    \4\ Grogger (1995), Lott (1990), Waldfogel (1994), Western (2002).
    \5\ Freeman (1992) and Western and Beckett (1999).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The poor labor market experiences of the formerly incarcerated can 
be explained in several ways. Those coming out of prison typically have 
little schooling and erratic work histories. A prison record further 
deepens this disadvantage. The stigma of a criminal conviction makes 
ex-offenders undesirable job applicants in the eyes of employers. 
Criminal stigma has a legal dimension in which those with criminal 
records are barred from employment in certain industries and 
occupations. Incarceration can also deplete skills and foster behaviors 
that are ill-suited to the open labor market.
    Analysis of the National Longitudinal Survey of Youth (1979) 
suggests time in prison affects a wide range of employment experiences. 
The NLSY is a nationally representative survey of youth aged 14 to 20 
in 1979. The respondents were interviewed annually until 1994, then 
every other year after that. From 1979 to 2000, 1 in 5 of the black 
male respondents were interviewed at least once in a correctional 
facility.
    Statistical analysis shows that imprisonment reduces the hourly 
wages, annual employment, and annual incomes of young men. Annual 
employment is reduced by between 10 and 15 percent. Hourly wages are 
reduced by between 12 and 16 percent. The combined effects of 
incarceration on hourly wages and annual employment, produce large 
losses in annual incomes. I find that the annual incomes of formerly 
incarcerated men are about 35 percent lower than for similar men who 
have not been incarcerated. We can gain more insight into the kinds of 
jobs obtained by released prisoners by considering the effects of 
incarceration on job tenure and wage growth. Analysis of the NLSY shows 
that the wages of ex-prisoners grow 25 percent more slowly as workers 
get older. Incarceration is also associated with a one-third reduction 
in job tenure. These statistics suggest that incarceration channels men 
into informal, secondary labor market jobs that offer little economic 
stability or upward mobility.
    These effects of incarceration on individual economic status are 
not new, but they are now playing out on a novel scale. Because 
returning prisoners are highly concentrated in poor urban 
neighborhoods, the economic penalties of incarceration now permeate the 
most economically vulnerable families and communities.

                        IV. Policy Implications

    Because incarceration rates are now so historically high, 
assistance for re-integration and rehabilitation will be felt not just 
by those coming out of prison, but by the poor and minority communities 
from which they originate. Three types of policies would help alleviate 
the social and economic effects of mass incarceration.

     Congress should re-examine the large of number of collateral 
consequences limiting the access of ex-felons to federal benefits and 
employment. Many restrictions--such as limitations on educational, 
welfare, and housing benefits--do not serve public safety, impede the 
reintegration of the formerly incarcerated, and penalize family 
members. While restrictions on benefits or employment might be 
justified if they are closely linked to particular crimes, such 
restrictions should be strictly time-limited, given the strong pattern 
of criminal desistance with age.
     Congress should support prisoner re-entry programs that provide 
transitional employment and other services. Well-designed programs have 
been found to improve employment and reduce recidivism. Research 
suggests that community-based re-entry programs should ideally be 
integrated with education and other programs in prison, and also 
provide housing, drug treatment, and health care to improve the job 
readiness of released-prisoners.\6\ Post-prison employment would be 
encouraged by passage of the Second Chance Act of 2007. Employer 
incentives can be promoted through expansions of the Work Opportunity 
Tax Credit and the Federal Bonding Program. Taken together, these three 
measures would provide an important first step to a comprehensive 
federal re-entry policy.
---------------------------------------------------------------------------
    \6\ Positive effects of employment and education programs in prison 
and after are reported by Saylor and Gaes (1997, 1999), Steurer, Smith, 
and Tracy (2001), and Finn (1998).
---------------------------------------------------------------------------
     Congress should support the establishment of criminal justice 
social-impact panels in local jurisdictions that can evaluate 
unwarranted disparities in juvenile and adult incarceration. By 
assessing the link between socioeconomic disparities in offending to 
disparities in incarceration, local social impact panels could identify 
and take steps to eliminate disproportionate incarceration in poor and 
minority communities. Social-impact panels could also be charged with 
assessing disparities that may arise under proposed sentencing reforms.
References
Pastore, Ann L. and Kathleen Maguire, eds. 2007. Sourcebook of Criminal 
    Justice Statistics [Online]. Table 6.28.2005. Available: http://
    www.albany.edu/sourcebook/. Accessed September 30, 2007.
Finn, Peter. 1998. Texas's Project RIO (Re-Integration of Offenders). 
    Washington DC: National Institute of Justice. NCJ 168637.
Freeman, Richard B. 1992. ``Crime and the Employment of Disadvantaged 
    Youth.'' Pp. 201-37 in Urban Labor Markets and Job Opportunity, 
    edited by George Peterson and Wayne Vroman. Washington, DC: Urban 
    Institute Press.
Grogger, Jeffrey. 1995. ``The Effect of Arrests on the Employment and 
    Earnings of Young Men.'' Quarterly Journal of Economics 110:51-71.
Lott, John R. 1990. ``The Effect of Conviction on the Legitimate Income 
    of Criminals.'' Economics Letters 34:381-385.
Saylor, William G. and Gaes, Gerald G. 1997. ``Training Inmates Through 
    Industrial Work Participation and Vocational and Apprenticeship 
    Instruction.'' Corrections Management Quarterly 1:32-43.
Saylor, William G. and Gaes, Gerald G. 1999. ``The Differential Effect 
    of Industries and Vocational Training on Post Release Outcome for 
    Ethnic and Racial Groups.'' Office of Research and Evaluation. 
    Washington DC: Federal Bureau of Prisons.
Steurer, Stephen J., Linda Smith and Alice Tracy. 2001. ``Three State 
    Recidivism Study.'' Report submitted to the Office of Correctional 
    Education, U.S. Department of Education. Lanham, MD: Correctional 
    Education Association.
Waldfogel, Joel. 1994. ``The Effect of Criminal Conviction on Income 
    and the Trust `Reposed in the Workmen.''' Journal of Human 
    Resources 29:62-81.
Western, Bruce. 2002. ``The Impact of Incarceration on Wage Mobility 
    and Inequality.'' American Sociological Review 67:477-98.
Western, Bruce. 2006. Punishment and Inequality in America. New York: 
    Russell Sage Foundation.
Western, Bruce and Katherine Beckett. 1999. ``How Unregulated is the 
    U.S. Labor Market: The Penal System as a Labor Market 
    Institution.'' American Journal of Sociology, 104:1030-60.
                                 ______
                                 
            Responses by Dr. Bruce Western to Questions from
                Representative Robert C. ``Bobby'' Scott
    Question 1. In your testimony, you mentioned creating local social-
impact panels. Could you provide more details about these panels, 
including who would sit on these panels?
    Response. Regarding social impact review panels, sentencing 
commissions at the state and federal levels periodically review 
demographic patterns in sentencing and other phases of criminal 
processing. The US Sentencing Commission, for example, is required to 
collect and publish data on federal sentencing practices. Under its 
Congressional mandate, the USSC annually publishes figures on the 
racial, ethnic, age and sex composition of sentenced defendants. The 
social impact panels I propose would do similar work, drawing on 
similar expertise and resources as the research arm of the USSC. The 
panels might ideally be established within state sentencing 
commissions.
    Although the data collection and dissemination tasks would be 
similar in form to the reporting activities of the USSC, the content 
would be different. Social impact panels would collect data not just on 
sentencing but also on arrest, pretrial incarceration, sentenced 
incarceration, and release. Instead of collecting data just on the 
race, ethnicity, age, and sex, data would also be obtained on the 
schooling and residence of those going to prison. This focus on 
schooling and residence is motivated by the extreme educational and 
residential disparities in incarceration. Finally, to identify 
unwarranted disparities, the social impact panels would compare 
patterns of incarceration to patterns of offending reflected in survey 
data and data on calls to police. The panel could thus identify 
localities and social groups whose incarceration rates exceeded their 
levels of criminal offending. If systematic evidence of disparate 
incarceration was reported, the panel would work with criminal justice 
agencies and other stakeholders to eliminate the disparities.
    Many of the data resources to conduct this work already exist. Data 
from the National Corrections Reporting Program provides a demographic 
census of prison admissions and releases in 38 states. The FBI Uniform 
Crime Reports and National Incident-Based Reporting System offer 
detailed counts of offenses known to the police at the county level. 
The National Crime Victimization Survey of the Bureau of Justice 
Statistics provides highly detailed demographic information about crime 
victims. The proposed work of the social impact panels would not build 
a new statistical system; rather it would extend existing resources 
with the clear purpose of identifying and mitigating social and 
residential patterns of disparate incarceration. The social impact 
panels would also provide advice to policymakers about proposed 
sentencing and other reforms. By providing this information, 
policymakers will tend to weigh more heavily the adverse consequences 
of unwarranted disparities. (A similar and more detailed discussion is 
provided by Marc Mauer in his proposal for racial impact statements in 
the 2007 Ohio State Journal of Criminal Law.)

    Question 2. In your testimony, you mentioned collateral 
consequences of incarceration, such as restrictions on participation in 
public benefit programs. What specific recommendations do you have with 
regard to these restrictions? What are the negative consequences of 
having these restrictions?
    Response. Regarding collateral consequences of incarceration, 
individuals with criminal convictions may currently be denied a range 
of federal benefits. TANF, food stamps, education grants and loans, and 
federal housing assistance are currently denied to those with felony 
and misdemeanor records. The 1996 welfare reform established bans on 
TANF and food stamps for people with felony drug convictions. States 
could expressly pass exemptions for the denial of benefits and twelve 
did so while the remainder kept the bans in full or adopted modified 
restrictions. These bans disproportionately affect poor women with 
children, a group whose incarceration rate is growing much faster than 
the general population. I know of no scientific evidence that public 
safety is served by the denial of TANF and food stamps to individuals 
with drug convictions. Indeed, rehabilitation and reintegration may 
well be promoted by such benefits. Many individuals with criminal 
records have difficulty obtaining work, either because they lack job 
skills or because employers have policies against hiring individuals 
with prior convictions. Public assistance and food stamps provide such 
individuals with necessary survival assistance as they look for 
employment. Public assistance and food stamps also help ensure the 
continued availability of alcohol and drug treatment programs. Alcohol 
and drug treatment programs, particularly residential programs, have 
historically relied on funding from a client's public assistance and 
food stamps to pay for room and board. Without these funds, programs 
are forced to reduce services. Because they might adversely affect 
public safety. Congress should eliminate bans on TANF and food stamps 
for those with drug convictions.
    In 1998 the Higher Education Act was amended to disqualify those 
with felony and misdemeanor drug convictions from eligibility for post-
secondary aid from Pell Grants, Stafford loans, and work-study 
assistance. Lifetime ineligibility is imposed on those with three 
convictions for drug possession or two convictions for drug sales. The 
GAO estimates that from 2001 to 2003, around 140,000 applicants for 
federal education assistance were denied because of a drug conviction. 
The number affected is likely to be much larger, because the ban on 
those with drug conviction discourages many from applying. Low 
education is perhaps the dominant deficit, besides the criminal record 
itself, limiting the economic opportunities of those released from 
incarceration. As for the ban on TANF and food stamps, I know of no 
scientific evidence that the ban on post-secondary education assistance 
promotes public safety. Indeed, the ban on post-secondary education for 
those with drug convictions is more likely to lead to recidivism than 
desistance from crime. Because higher education supports are targeted 
at low-income students, banning post-secondary aid compounds the 
economic difficulties that those with criminal records are struggling 
to overcome. Congress should eliminate the denial of federal post 
secondary education benefits to individuals with drug convictions.
    Finally, a variety of provisions deny federally assisted housing 
benefits to those involved in drug-related activity. Federal law 
provides for two main exclusions. Those engaging in drug-related 
activity in public housing can be evicted, and applications for public 
housing can be denied to those with convictions for drug-related 
activities. Drug-related serious violence is an acute problem in public 
housing. However, there is little evidence that the denial of housing 
to those with drug convictions has reduced crime public housing. Public 
housing, like education and welfare benefits, helps erase a key deficit 
for those returning home from prison and jail. In the absence of 
evidence that the denial of public housing to those with drug 
convictions improves public safety, and in light of the vast number of 
poor citizens with drug convictions, Congress should eliminate 
ineligibility for public housing on the basis of a criminal record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Prepared Statement of Alphonso Albert, Executive Director,
                             Second Chances
    The Second Chances program is a program sponsored by the city of 
Norfolk to assist non-violent offenders that are returning back into 
the local community after being incarcerated in jail and prison.
    Over the past eight years, Second Chances has served more than 1200 
offenders, provided more than 900 jobs at an average wage of $9.00 per 
hour and maintained a 73 percent employment retention rate over one 
year period. Additionally, Second Chances has implemented programs to 
serve children of incarcerated parents, opened a permanent supportive 
housing initiative to provide housing for offenders that are homeless 
upon their return and started three business enterprises that hire 
program participants at a minimum of $ 8 per hour and $12 per hour with 
benefits when they have drivers license.
    There is a collateral cost to incarceration however, that is rarely 
observed or talked about but one that comes back to haunt society in so 
many other ways. The cost is one that impacts families and children of 
incarcerated individuals. Most incarcerated individuals have families 
and many of them have children that grow-up themselves to be 
incarcerated. The fact that a child that lives in a household with a 
loved one or family member that has been incarcerated and will likely 
be incarcerated themselves when they grow up is due in large measure to 
the fact that the same conditions that existed for the adult will exist 
for the child unless there is some intervening factors. Limited 
education, lack of positive role model, poor housing conditions, abuse, 
etc. are all factors that contribute. The Second Chances staff recently 
conducted a survey of women in the Norfolk City jail that were within 
90 days of release. The results of the survey indicated that and that 
34 women had children between the ages of 4-18, only 9 of the 34 had 
legal custody of their children, 25 or the 34 self reported as having 
problems with substance abuse or addiction, 16 admitted having damaged 
relationship with family as a result of their addiction, and 27 
acknowledged that they needed some type of parenting class or training 
in order to be a better parents.
    The greatest challenge that we face on a daily basis in helping 
offenders make a positive transition from prison back into the 
community (getting out and staying out as productive citizens) is pre-
release planning and post release services. The department of 
corrections provides limited training opportunities for returning 
offenders and has only recently began focusing re-entry planning as a 
part of their overall strategy for helping offenders make a smooth 
transition back into local communities. More often than not, the issues 
of no proper identification, no birth certificates, limited pre-release 
plans, no post release services, housing and lack of job leads, 
financial burden and hardship are all things that stifle the offenders 
and prevent the individual from having a positive re-entry experience. 
These factors also lead to recidivism and relapse in so many of the 
cases that we see on a daily basis.
    Recently, the State of Virginia became one of seven states around 
the country to participate in the National Governors Association 
Reentry Policy Academy. Virginia sub sequentially established five 
pilot programs around the State that focused on providing pre-release 
planning and post release services. The challenge to these pilot sites 
however, is lack of funding. Lack of funding means no counselors to 
work with offenders prior to release in getting proper Identification, 
birth certificates and a total of all fines, court cost, child support, 
restitution and other financial obligations prior to release. Funding 
at the federal level would also support staffing that helps offenders 
with job leads, housing placement, job training and other post release 
services. It is my opinion that funding for reentry programs that 
provide pre and post release planning as well as job placement, case 
management and follow-up aftercare should be made available in order to 
help prevent recidivism, strengthen families, and promote healthy 
communities through the concept of investing in our human 
infrastructure at a time when we can least afford not to do so.
    Thank you for the opportunity to provide testimony to this 
committee and I would be pleased to answer any further questions.
                                 ______
                                 
             Responses by Alphonso Albert to Questions from
                Representative Robert C. ``Bobby'' Scott
    Question 1. In your testimony, you mention the importance of pre-
release planning and post-release services. How would you recommend 
integrating these ideas into the current criminal justice and 
incarceration system and what effect would the re-institution of parole 
have on an inmate's incentive to plan for release.
    Response. Pre-release planning and post release services could be 
integrated into the current system by funding directed to the state re-
entry pilots and programs that are currently providing pre and post 
release services as beginning models. Funding that would provide each 
pilot site with two pre-release counselors per facility that would be 
responsible for assisting offenders with securing id cards, birth 
certificates, clothing, an assessment of all fines and financial 
obligations prior to release as well as two or three weeks of 
orientation that prepares the offenders for what to expect when 
returning. Funding for the same pilot for post release services would 
help with transitional jobs, case managers, housing vouchers, 
transportation assistance, life skills, job training and other related 
services.
    As far as the parole board, I do think that having parole adds 
incentive to an inmates when incarcerated and motivates positive 
behavior and outlook for inmate. I also feel however that the 
compromise achieved when selecting a parole board in the past (and by 
compromise, I mean the people selected) has been too political and 
influenced too heavily by people that either advocate revenge or victim 
rights. This does not allow for an objective viewing of the risk 
factors and suitability of inmate parole candidates. I am strongly in 
favor of reinstituting the parole system here in Virginia, however; the 
board should be selected differently. I certainly hope that I have 
answered your questions satisfactorily and please feel free to contact 
me if I can be of further assistance.
                               __________
           Prepared Statement of Michael Jacobson, Director,
                       Vera Institute of Justice
    Good morning Senator Webb. I would like to thank you for inviting 
me here to testify today. I have some brief remarks and then I'd be 
happy to answer any questions you might have.
    The United States now spends over $60 billion annually to maintain 
its corrections system reflecting the fact that we imprison a greater 
percentage of our population than any other nation on earth. In the 
last 30 years, we have seen the jail and prison population rise from 
250 thousand to almost 2.3 million, almost a tenfold increase.
    The strain that this geometric increase in those incarcerated puts 
on our states and cities is cumulative and continues to grow. Over the 
last decade and a half, the only function of state governments to grow 
as a percentage of overall state budgets is, with the exception of 
Medicaid, corrections. The rate of growth of spending on corrections in 
state budgets exceeds that for education, health care, social services, 
transportation and environmental protection. There is a very clear 
relationship between the amount of money we spend on prisons and the 
amount that is available, or not available, for all these other 
essential areas of government. In many states--California is one that 
especially comes to mind--one can literally see money move in the 
budget from primary and secondary education to prisons. State budgets 
tend to be largely zero sum games and increases in corrections spending 
has absolutely held down spending in these other areas of government, 
many of which are also directly related to public safety.
    Of course, the obvious question this raises is, ``what do we get 
for that money?'' Certainly, there should be some significant 
connection between our tremendous use of prison and public safety. As 
most people know, the U.S. experienced a large crime decline from the 
early 1990s to the early 2000s and it would seem to make intuitive 
sense that our significantly increasing prison systems played a major 
role in that decline.
    In fact, it is a much more mixed and nuanced story than it would 
appear. There is some consensus among criminologists and social 
scientists that over the last decade, our increased use of prison was 
responsible for some (perhaps around 20-25 percent) but by no means 
most of the national crime decline. Additionally, there is also 
agreement that, going forward, putting even more people in prison will 
have declining effectiveness as we put more and more people in prison 
who present less and less of a threat to public safety. At this point, 
putting greater numbers of people into prison as a way to achieve more 
public safety is one of the least effective ways we know to decrease 
crime.
    We know, for instance, that even after spending tens of billions of 
dollars on incarceration, more than half of those leaving prison are 
back in prison within three years--not a result that anybody should be 
proud of. We know that targeted spending for effective in-prison and 
post-prison reentry programs will reduce crime and victims more 
substantially than prison expansion. We know that diverting people from 
prison who are not threats to public safety into serious and structured 
community based alternatives to prison is more effective than simply 
continuing to incarcerate, at huge expense, these same people. In the 
same vein, the research shows that increasing high school graduation 
rates, neighborhood based law enforcement initiatives and increases in 
employment and wages will also more effectively reduce crime than 
greater use of prison.
    We also know that incarcerating so much of our population and 
especially the disproportionate incarceration of people of color also 
comes with other costs as well. Hundreds of thousands of people leave 
prison annually with no right to vote, no access to public housing, 
hugely limited abilities to find employment and high levels of drug use 
and mental illness. These unintended consequences of incarceration 
ripple through families and communities as those returning home are 
overwhelmed by seemingly intractable obstacles. Not surprisingly, many 
people wind up returning to prison in astounding numbers, further 
draining scarce resources that could be made available to deal with 
some of these obstacles themselves.
    As someone who used to run the largest city jail system in the 
country, I know that most people who leave jail and prison do not want 
to come back. It is a miserable and degrading experience and my 
colleagues who run these systems and I always marvel about the numbers 
of people who are leaving prison who want to make good and do good. 
Once they leave however, they are confronted by such overwhelming 
barriers on which we currently spend almost no money or attention that 
no one should be surprised that these same people are back in prison so 
soon.
    We know that states can continue to decrease crime and 
simultaneously decrease prison populations. New York State, for 
example, has for the last seven years seen the largest decrease in its 
prison population of any state in the nation--a decline of 14 percent. 
The rest of the states increased their prison populations by an average 
of 12 percent over the same time period. At the same time, violent 
crime decreased in New York State by 20 percent compared to just over 1 
percent for the rest of the country. Prison populations can drop along 
with crime and victimization.
    If we were serious about using our limited resources most 
effectively in reducing crime and victimization and increasing public 
safety, then we would begin to responsibly and systematically transfer 
some of the resources now used to imprison people to community based 
prevention, reentry and capacity building. It is important to stress 
here that this is an issue of public safety. Even putting aside all 
arguments about efficiency and effectiveness, talking only in terms of 
public safety, we will all be safer if we begin to reinvest some of the 
money that now goes to incarcerate people who do not pose a threat to 
public safety (and who become more of a threat to public safety after 
they are imprisoned) into other programmatic initiatives both inside 
and outside the criminal justice system.
    The fact is that almost all the extant research points out that our 
prison system is too big, too expensive, drains funds away from other 
essential areas that can more effectively increase public safety, and 
is harmful to our poorest communities. Despite all this research, 
however, we continue to imprison more and more people. There are a host 
of reasons for this ongoing trend including: the attraction of prisons 
as engines of economic development for rural communities; the financial 
incentives for public employee unions as well as for the private prison 
industry in more spending on prisons; the ``realities'' of the budget 
process and constrained budgets that limit opportunities to make 
substantial investments in new initiatives; and the omnipresent hyper-
politics that surround issues of crime and punishment in the United 
States.
    These are all formidable obstacles but none should be sufficient to 
keep us from educating policymakers and the public that there is a 
better way to be safe and have less crime.
                                 ______
                                 
         Responses by Dr. Michael P. Jacobson to Questions from
                Representative Robert C. ``Bobby'' Scott
    Question 1. In your testimony, you reference the need to invest in 
capacity building. Could you elaborate on what capacity building means 
in this context?
    Response. The context in which I was using ``capacity building'' 
was around improving the civic infrastructure in high incarceration 
communities. For instance, if you superimposed on the map of New York 
City that Dr. Loury brought showing high impact communities in New York 
City, you would also find that these same communities generally have 
the lowest performing schools, the fewest health and child care 
facilities, the fewest financial institutions, community centers, 
after-school programs etc. It is no coincidence that the communities 
that ``contribute'' the greatest numbers of state prisoners are also so 
lacking in adequate civic infrastructure. In addition to directing 
funding away from prisons and to alternatives to prisons, community 
based reentry programming and treatment, it is important to consider 
the essential needs and services of these communities as well.

    Question 2. Please describe the essential elements of successful 
crime reduction programs.
    Response. In terms of the essential elements of crime reduction 
programs, any successful crime reduction strategy must consist of more 
than simply increased criminal justice resources. We know, for 
instance, that targeted investments in education programs (especially 
those that increase high school graduation rates), employment programs 
and wages, and treatment all have the potential to decrease crime by a 
greater amount than just simply more use of prison (where we know the 
impact will be minimal) and generally increasing the number of police 
(though particular policing strategies can be very effective). The 
overall point here is that if we are serious about reducing crime the 
research tells us we have to look at investments outside the criminal 
justice system in addition to whatever we fund in criminal justice. The 
politics may not work as well, but the research tells us that specific 
funding in education, employment, wages, and treatment can have a 
significant impact on reducing crime. (See Stemen, Don. Reconsidering 
Incarceration: New Directions for Reducing Crime, Vera Institute of 
Justice, January 2007.)
                               __________
   Prepared Statement of Pat Nolan, Vice President, Prison Fellowship
    Mr. Chairman and members, I am grateful for this opportunity to 
share with you some thoughts on the cost to our society of the massive 
increase in incarceration in the United States. Thank you for holding 
this hearing to address this very important topic. Others have 
discussed the financial cost of mass imprisonment. I will try to give 
you some perspective on the human toll it is taking.
    My name is Pat Nolan. I am a Vice President of Prison Fellowship 
and lead their criminal justice reform arm, Justice Fellowship. I also 
serve on the Prison Rape Elimination Commission and the Commission on 
Safety and Abuse in America's Prisons. I bring a unique background to 
this work. I served for 15 years as a member of the California State 
Assembly, four of those as the Assembly Republican Leader. I was a 
leader on crime issues, particularly on behalf of victims' rights. I 
was one of the original sponsors of the Victims' Bill of Rights 
(Proposition 15) and was awarded the ``Victims Advocate Award'' by 
Parents of Murdered Children. I was prosecuted for a campaign 
contribution I accepted, which turned out to be part of an FBI sting. I 
pleaded guilty to one count of racketeering, and served 29 months in 
federal custody.
    Now, God has placed me in a position that I can share these 
observations with criminal justice officials, using my experiences as a 
lawyer, legislator and prisoner to improve our justice system. Justice 
Fellowship works with government officials at the federal and state 
levels, helping them develop policies that repair the harm done to 
victims, reform the hearts of offenders, and, in doing that, restore 
peace to communities.
    The figures on incarceration are staggering. One in every 32 adult 
Americans is in prison or on supervised release. Prisons have become 
one of the fastest growing items in state budgets, siphoning off 
dollars that that might otherwise be available for schools, roads or 
hospitals.
    In America today, offenders serve their sentences in overcrowded 
prisons where they are exposed to the horrors of violence including 
rape, isolation from family and friends, and despair. The best way to I 
can describe how it felt to be imprisoned is that I was like an 
amputee. I was cutoff from my family, my friends, my work, my church 
and my community. Then, with my stumps still bleeding, I was tossed 
into a roiling cauldron of anger, bitterness, despair and often 
violence.
    Most inmates are idle in prison, warehoused with little preparation 
to make better choices when they return to the free world. Just one-
third of all released prisoners will have received vocational or 
educational training in prison. While approximately three of every four 
inmates have a substance abuse problem, less than 20 percent will have 
had any substance abuse treatment before they are released. The number 
of returning inmates is now four times what it was 20 years ago, yet 
there are fewer programs to prepare them return to their communities. 
They get little preparation to make better choices when they return to 
the free world. On leaving prison they will have great difficulty 
finding employment. The odds are great that their first incarceration 
will not be their last.
    Our large investment in our prisons might be justified if the 
inmates released from them were reformed in hearts as well as habits. 
However, most inmates do not leave prison transformed into law-abiding 
citizens. In fact, the very skills inmates develop to survive inside 
prison make them anti-social when they are released.
    More than 700,000 inmates will be released from America's prisons 
next year. To put this in perspective, that is more than three times 
the size of the United States Marine Corps. Even more will be released 
the following year, and even more every year thereafter. Each day, over 
1,900 offenders leave prison and return to neighborhoods across the 
country.
    What has been done to prepare these returning inmates to live 
healthy, productive, law-abiding lives? What kind of neighbors will 
they be? Each of us has a stake in seeing that these men and women make 
a safe and successful return to their communities. Yet, very little is 
being done to help them make that transition successfully.
    The fact of the matter is most of the inmates we have released do 
commit more crimes. Over the last 30 years, the rate of rearrest has 
hovered stubbornly around 67 percent. If two-thirds of the patients 
leaving a hospital had to be readmitted, we would quickly find a new 
hospital. So also, we must find a better way to prepare inmates for 
their release if we are to have safer communities. One way is through 
the Second Chance Act which is now before the Senate. It will provide 
the states and our communities help in developing better ways to do 
that.
    However, we must also examine sentencing laws that put so many non-
violent offenders in prison. Certainly we need prisons to separate 
violent and dangerous people from the rest of society. But given the 
overcrowding and violence in our prisons, why on earth would we put 
people convicted of non-violent crimes in prison? Prisons are for 
people we are afraid of, but our sentencing laws have filled them with 
people we are merely angry at. Changing our sentences so that low risk 
offenders are punished in the community under strict supervision would 
reduce overcrowding in prisons and help control violence. It would hold 
low risk offenders accountable without exposing them to the violence 
and the great difficulties of transition back to the community after 
their sentence.
    After release from prison, offenders face many barriers, often 
called ``invisible punishments'': They are frequently denied parental 
rights, driver's licenses, student loans, the right to vote, and 
residency in public housing--which is often the only housing that they 
can afford.
    Further, little is done to change the moral perspective of 
offenders. Most inmates do not leave prison transformed into law-
abiding citizens; in fact, the very skills inmates develop to survive 
inside prison make them anti social when they are released. Most are 
given a bus ticket to their hometown, gate money of between $10 and 
$200, and infrequently a new set of clothes. Upon leaving prison 
virtually all will have great difficulty finding employment.
    The moment offenders step off the bus they face several critical 
decisions: Where will they live, where will they be able to find a 
meal, where should they look for a job, how will they get to a job 
interview, and where can they earn enough money to pay for necessities? 
These returning inmates are also confronted with many details of 
personal business, such as obtaining identification cards and 
documents, making medical appointments, and working through the many 
everyday bureaucratic problems that occur during any transition. These 
choices prompt feelings of intense stress and worry over the logistics 
of their return to the outside world. To someone who has had no control 
over any aspect of their lives for many years, each of these problems 
can be difficult. In accumulation, they can be overwhelming.
    My own experience provides a good example. Shortly after my release 
from prison to the halfway house, some friends took me to lunch at a 
local deli. The waiter came over to take our orders. Everyone else told 
him what they wanted, but I kept poring over the menu. My eyes raced 
over the columns of choices. I knew that I was supposed to order, but 
the number of options overwhelmed me. My friends sat in embarrassed 
silence. I was paralyzed. The waiter looked at me impatiently. I began 
to panic. How ridiculous that I wasn't able to do such a simple thing 
as order lunch. Finally, in desperation I ordered the next item my eyes 
landed on, a turkey sandwich. I didn't even want it, but at least it 
put an end to this embarrassing incident.
    For two years I hadn't been allowed to make any choices about what 
I ate. Now I was having a hard time making a simple choice that most 
people face every day. If I had this much difficulty after only a 
couple of years in prison, think how hard it is for those inmates who 
haven't made any choices for 5, 10, or 15 years. And what about those 
who didn't have the wonderful home, the loving family, the strong faith 
and the good education that I had? They face a baffling array of 
options and little preparation. Is it any surprise that so many newly 
released prisoners make some bad choices and end up back in prison?
    The choices offenders make immediately after release are extremely 
important. Of the ex-prisoners who fail, over half will be arrested 
within the first 6 months. That is not much time to turn their lives 
around. One study of rearrests in New York City found that the rate was 
especially high during the first hours and days following release. This 
early window of time is the most intense period for ex-prisoners, when 
they may be overwhelmed by the accumulation of large and small 
decisions facing them. On average, ex-offenders have only a one-in-
three chance of getting through their first three years without being 
arrested.
    As the number of people released from prison and jail increases 
steadily, we cannot afford to continue to send them home with little 
preparation. These policies have harmed too many victims, destroyed too 
many families, overwhelmed too many communities, and wasted too many 
lives as they repeat the cycle of arrest, incarceration, release and 
rearrest. The toll this system takes is not measured merely in human 
lives: The strain on taxpayers has been tremendous. As jail and prison 
populations have soared, so have corrections budgets, creating fiscal 
crises in virtually every state and squeezing money for schools, health 
care, and roads from state budgets.
    It does not have to be this way. Fortunately, there are many things 
that the government in partnership with the community, and in 
particular our churches, can do that increase the likelihood that 
inmates will return safely to our communities.
    One of the most important provisions of the Second Chance Act will 
provide grants to community and faith-based non-profits to link 
offenders and their families with mentors. Let me tell you why this is 
so important.
    It is essential that returning inmates have a friend they can turn 
to as they take their difficult first steps in freedom. A loving mentor 
can help them think through their decisions and hold them accountable 
for making the right moral choices.
    The importance of mentors to returning prisoners was stressed by 
Dr. Byron Johnson in his recent study of the Texas InnerChange Freedom 
Initiative (IFI), the reentry program operated by Prison Fellowship 
under contract with the state. Dr. Johnson's study found that IFI 
graduates were two and a half times less likely to be reincarcerated 
than inmates in a matched comparison group. The two-year post-release 
reincarceration rate among IFI graduates in Texas was 8 percent, 
compared with 20.3 percent of the matched group.
    Dr. Johnson emphasized that mentors were ``absolutely critical'' to 
the impressive results. The support and accountability provided by 
mentors often make the difference between a successful return to 
society and re-offending. As these offenders make the difficult 
transition back into the community, they need relationships with 
caring, moral adults. The greater the density of good people we pack 
around them, the greater the chance that they will be successfully 
replanted into the community.
    IFI recruits members of local churches to give at least 1 hour a 
week to mentor the IFI inmates, both while they are still incarcerated 
and after they return to their community. In his interviews with the 
IFI participants, Dr. Johnson found that the mentors' weekly visits 
were very important to the inmates. ``Without exception, IFI 
participants have indicated the critical impact volunteers have made in 
their lives. The sincerity and time commitment of volunteers has simply 
overwhelmed program participants.'' The benefit of these relationships 
with their mentors derives not only from the things discussed, but also 
for the love conveyed. By faithfully keeping their commitment to the 
weekly mentoring sessions, the mentors show a commitment to the inmates 
that many have never experienced before in their lives. As Dr. Martin 
Luther King, Jr., said, ``To change someone, you must first love them, 
and they must know that you love them.''
    While many people would never associate the word ``love'' with 
prisoners, love is precisely what has been lacking in the lives of many 
of these men and women. They have gone through life without anyone 
caring about them or what they do, nor caring enough about them to 
coach them as they confront life. Many inmates are emotionally 
overdrawn checkbooks. We must make deposit, after deposit, after 
deposit before we will see any positive balance.
    A mentor can help the ex-offenders think through employment options 
and tell them what their employer will expect of them on the job. Many 
offenders have never had someone in their lives who has held a steady 
job. They have no model for being a good employee. A mentor can teach 
them that they need to get up on time, go to work each day, and call 
their supervisor if they must be late or absent. Offenders may find it 
difficult to take direction or may lack skills to cope with a difficult 
boss or fellow employees. A mentor can help them with these and other 
everyday difficulties of the workplace and teach them the importance of 
punctuality, politeness, and diplomacy on the job.
    Mentors help returning inmates deal with many of the personal 
problems they typically encounter upon leaving prison: no reliable 
friends outside their former gang network, marital problems, and no 
easy way to get on with life.
    Mentors can also help the offenders learn decisionmaking skills and 
teach them how to keep track of bills and pay them on time. In prison, 
inmates do not have to deal with any of this. On the street such 
details may quickly overwhelm them. In short, offenders need to be 
taught how to make good choices, handle responsibility, and be 
accountable--to make the right choice even when no one is looking.
    Corrections staff can't make this kind of commitment to help each 
individual prisoner. But volunteer mentors can, and, in fact are, 
making this commitment in programs throughout the country.
    Most of us can remember a teacher, coach, or neighbor who believed 
in us and helped us believe in ourselves. That is exactly what 
returning offenders need, yet most have never had someone like that in 
their lives. Mentors can fill that void. A loving mentor lets returning 
inmates know that the community is invested in their success. And the 
Second Chance Act will provide concrete assistance to community and 
faith-based groups to recruit and train mentors for this essential 
work.
    As you work to improve our criminal justice programs, I suggest you 
keep several concepts in mind:
    The purpose of our criminal justice system is to create safer 
communities and reduce the number of victims. There is a tendency to 
focus on institutional safety, rather than community safety. Under this 
narrow, institutional focus, the surest way to avoid escapes and riots 
would be to keep prisoners in their cells 24 hours a day, 7 days a week 
However, the public would be in far greater danger after those 
prisoners were released. Instead of focusing on institutional 
convenience, correctional policy must be judged by whether it makes the 
public safer.
    Reentry planning should start at intake. Planning for the release 
of inmates should start as soon as they are sentenced. Assignment to a 
prison should include factors such as the proximity of the prison to 
the inmate's family and the availability of needed programs.
    Prison policies should strengthen families. Crime not only has a 
devastating impact on the direct victims, but also on the families of 
offenders. Incarceration puts tremendous stress on the spouses and 
children of offenders. These family members have committed no crime. 
The stress on the family is exacerbated by policies such as placing 
inmates far from their families, frequently treating visiting families 
with disrespect, and charging exorbitant fees for telephone calls.
    In addition, there are often preexisting issues of drug abuse, 
physical abuse, and marital conflict. If these issues are not resolved 
during incarceration, reentry will be much more difficult. Programs 
such as La Bodega de la Familia in New York, work with the entire 
family to strengthen their relationships. A healthy, functioning family 
is one of the most important predictors for successful reentry. Our 
prison policies must be changed to strengthen families rather than 
destabilize them.
    Prisons are for people we're afraid of, but many of those filling 
our prisons are there because we are merely mad at them. The response 
to a technical violation should not automatically result in return to 
prison. Obviously, it is important for offenders to learn to live by 
the rules. However, if an offender is making good progress it makes 
little sense to throw that all away because he didn't file his 
paperwork on time or missed a meeting with his probation officer. One 
judge told me, ``Right now, I can either send him back to prison or let 
him go to the beach. Give me something in between.''
    Inmates should be encouraged to participate in faith based 
programs. To deal effectively with crime, we must first understand it. 
At its root, crime is a moral problem. Offenders make bad moral choices 
that result in harm to their victims. To break the cycle of crime, we 
must address this immoral behavior. There aren't enough police officers 
to stop everyone tempted to do something bad from doing it; inmates 
must rely on inner restraint to keep from harming others.
    Job training and education alone won't transform an inmate from a 
criminal into a law-abiding citizen. For some inmates such programs 
merely make them smarter, more sophisticated criminals. It is a changed 
heart that can transform a prisoner. Unfortunately, many prison 
programs ignore the moral aspect of crime and avoid all discussion of 
faith and morality. In doing so, they are missing a significant factor 
that has proven very effective at changing criminals' behavior faith. 
If inmates are to live healthy, productive, law-abiding lives when they 
return to their communities, we must equip them with moral standards to 
live up to and a world view that explains why they should do so.
    The community should ``own'' reentry. There is a tendency to view 
reentry as a program of corrections departments. While our prison 
systems are certainly central to the reentry process, it is the 
community that has the most at stake. Many corrections policies make it 
difficult for community and church groups to be involved in preparing 
inmates for release. Many systems ``keep their options open'' on 
release dates, often right up to the day of release, making it 
impossible to recruit, match and train mentors, locate appropriate 
housing, arrange for jobs or welcome the inmates at the bus. For 
reentry programs to be a success, community groups and churches should 
be viewed as important partners with the state, not as mere 
auxiliaries.
    An important example of a corrections policy that makes reentry 
much more difficult is the so-called ``non-fraternization'' rule. I am 
sure you will be shocked to learn that the Federal Bureau of Prisons 
and many states DOCs prohibit religious volunteers from being in 
contact with inmates after they are released. This policy cuts the 
inmates off from the very people most likely to be able to help them 
make a successful transition. Corrections policies must be rewritten to 
encourage mentoring relationships to begin inside prison and continue 
after release. These healthy relationships should be encouraged, not 
prohibited. I am told the BOP is considering changes to this policy, 
but to make sure the Second Chance Act will overturn this 
counterproductive policy.
    Programs are important, but healthy relationships are even more 
important. The support and accountability provided by mentors often 
make the difference between a successful return to society and re-
offending. As offenders make the difficult transition back into the 
community, they need relationships with caring, moral adults. The 
greater the density of good people we pack around them, the greater the 
chance that they will be successfully replanted back into the 
community.
    I have written a book, When Prisoners Return, which covers all 
these issues and is being used by departments of corrections, churches 
and community organizations to coordinate their efforts to help 
offenders during the difficult transition from prison to the community. 
If you and your staff would like copies, I will gladly provide them to 
you.
    I mentioned that I serve on the Commission on Safety and Abuse in 
America's Prisons. Last year we released our report ``Confronting 
Confinement''. It concluded that our prisons are breeding grounds for 
future crime. The overcrowding and lack of educational and 
rehabilitative programming are spawning violence behind bars that 
spills over into our neighborhoods once prisoners are released.
    The Commission made several recommendations based on a clear 
consensus among the experts that to prevent violence in prison we must:

     Reduce crowding.
     Increase access to meaningful programs and activities.
     Encourage a climate of mutual respect between staff and inmates.
     Increase the transparency of the institutions by increasing 
accessibility to outside agencies and volunteers.
     Identify at-risk prisoners and potential predators, and classify 
them accordingly.
     Make better use of surveillance technology.
     Strengthen family relationships by placing inmates close to their 
families, encouraging family visits, and lowering the cost of phone 
calls.

    At Prison Fellowship, an outreach founded by Chuck Colson, we have 
had 31 years of experience in seeking the transformation of prisoners' 
lives. We have identified six ``best practices'' that we believe are 
applicable in almost any prison setting to achieve transformation in 
the lives of prisoners resulting in lower recidivism and greater public 
safety.
    a. Community--men or women living together on a floor, wing, or 
building with the intentional purpose of transforming their lives.
    b. Consistency--being able to work with prisoners on a frequent and 
consistent basis--daily if possible
    c. Character--a focus on the moral and personal issues that led to 
criminal behavior
    d. Comprehensive--holistic in nature and includes spiritual 
formation, education, vocational training, substance abuse treatment, 
life skills training, parenting training, etc.
    e. Continuous--it begins in prison and continues in as they are 
released from prison into the community.
    f. Collaborative--it is a collaborative process that must involve 
many individuals, government agencies, the business community, faith 
based institutions, and non-profits.
    As a state legislator I made the mistake of thinking that locking 
people up made our communities safer. Only when I was in prison did I 
realize that most inmates will be released someday, and locking so many 
of our people in prison while doing nothing to prepare them for their 
release is very dangerous. I commend this committee and your staff for 
calling attention to the horrible toll that overincarceration is taking 
on American society.
    Prepared Statement of Congresswoman Sheila Jackson-Lee, of Texas
    Thank you, Chairman Schumer and Vice-Chairwoman Maloney for holding 
this important and timely hearing on the exponential growth of the 
prison population in the United States. Thank you also for allowing me 
to share with the Joint Economic Committee a legislative proposal I 
have been advocating for several years which help alleviate this 
crisis.
    As members of this Committee are fully aware, the United States has 
experienced a sharp increase in its prison population in the past 30 
years. From the 1920s to the mid-1970s, the incarceration rate in the 
United States remained steady at approximately 110 prisoners per 
100,000 people. Today, the incarceration rate is 737 inmates per 
100,000 residents, comprising 2.1 million persons in federal, state, 
and local prisons. The United States has 5 percent of the world's 
population but now has 25 percent of its prisoners. There are 
approximately 5 million Americans under the supervision of the 
correctional system, including parole, probation, and other community 
supervision sanctions.
    When it comes to the plight of African American and Hispanic males, 
the numbers paint an even bleaker picture. Incarceration is not an 
equal opportunity punishment. For example, incarceration rates in the 
United States by race were:

     Blacks: 2,468 per 100,000
     Latinos: 1,038 per 100,000
     Whites: 409 per 100,000

    Gender is an important ``filter'' on who goes to prison or jail, 
June 30, 2006. Males are 10 times as likely to end in prison as 
females:

     Females: 134 per 100,000
     Males: 1,384 per 100,000

    Looking at just the males by race, the incarceration rates become 
even more frightening, June 30, 2006:

     Black males: 4,789 per 100,000
     Latino males: 1,862 per 100,000
     White males: 736 per 100,000

    Looking at males aged 25-29 and by race, you can see what is going 
on even clearer, June 30, 2006:

     For White males ages 25-29: 1,685 per 100,000.
     For Latino males ages 25-29: 3,912 per 100,000.
     For Black males ages 25-29: 11,695 per 100,000. (That's 11.7 
percent of Black men in their late 20s.)

    Here is another statistic that I find particularly striking. The 
United States locks up its Black males at a rate 5.8 times higher than 
the most openly racist country in the world ever did:

     South Africa under apartheid (1993), Black males: 851 per 100,000
     United States (2006), Black males: 4,789 per 100,000

    In Texas, the state from which both President Bush and I hail, the 
situation is just as bad. Texas has an African American population of 
11 percent but an African American prison population of 44 percent. 
Texas also ranks number first in putting citizens to death. It ranks 
third in spending on prisons but 20th in education spending. It ranks 
15th in incarcerating drug offenders.

    Mr. Chairman, this state of affairs is not sustainable. The costs 
of maintaining this ``prison-industrial complex'' annually consume an 
increasing share of public revenues and adversely impacts society's 
ability to make other needed public investments in education, health 
care, infrastructure, and economic growth. That is why I am pleased 
that the Joint Economic Committee is holding this hearing today to 
examine why the United States has such a disproportionate share of the 
world's prison population, as well as ways to address this issue that 
responsibly balance public safety and the high social and economic 
costs of imprisonment.
    According to the Urban Institute, ``the social and economic costs 
to the nation are enormous.'' With 2.25 million people incarcerated in 
approximately five thousand prisons and jails, the combined 
expenditures of local governments, state governments, and the federal 
government for law enforcement and corrections personnel totals over 
$200 billion.
    I have reintroduced legislation in this Congress which addresses an 
important cause of the prison population explosion, and that is the 
continued warehousing of elderly and middle-aged non-violent offenders. 
My legislation, H.R. 261, the ``Federal Prison Bureau Nonviolent 
Offender Relief Act,'' provides for the early release for non-violent 
offenders who have attained the age of at least 45 years of age, have 
never been convicted of a violent crime, have never escaped or 
attempted to escape from incarceration, and have not engaged in any 
violation, involving violent conduct, of institutional disciplinary 
regulations.
    My bill seeks to ensure that in affording offenders a second chance 
to turn around their lives and contribute to society, ex-offenders are 
not too old to take advantage of a second chance to redeem themselves. 
A secondary benefit of my legislation is that it would relieve the some 
of the strain on federal, state, and local government budgets by 
reducing considerably government expenditures on warehousing prisoners.
    Mr. Chairman, some of those who are incarcerated face extremely 
long sentences, and this language would help to address this problem. 
Releasing rehabilitated, middle-aged, non-violent offenders from an 
already overcrowded prison population can be a win-win situation for 
society and the individual who, like the Jean Valjean made famous in 
Victor Hugo's Les Miserables, is redeemed by the grace of a second 
chance. The reentry of such individuals into the society will enable 
them to repay the community through community service and obtain or 
regain a sense of self-worth and accomplishment. It promises a 
reduction in burdens to the taxpayer, and an affirmation of the America 
value that no non-violent offender is beyond redemption.
    Mr. Chairman, at a time when tight budgets have forced many states 
to consider the early release of hundreds of inmates to conserve tax 
revenue and when our nation's Social Security system is in danger of 
being totally privatized, early release is a common-sense option to 
raise capital.
    The rate of incarceration and the length of sentence for first-
time, non-violent offenders have become extreme. Over the past two 
decades, no area of state government expenditures has increased as 
rapidly as prisons and jails. According to data collected by the 
Justice Department, the number of prisoners in America has more than 
tripled over the last two decades from 500,000 to 1.8 million, with 
states like California and Texas experiencing eightfold prison 
population increases during that time. Mr. Chairman, there are more 
people in the prisons of America than there are residents in states of 
Alaska, North Dakota, and Wyoming combined.
    Over one million people have been warehoused for nonviolent, often 
petty crimes. The European Union, with a population of 370 million, has 
one-sixth the number of incarcerated persons as we do, and that 
includes violent and nonviolent offenders. This is one third the number 
of prisoners which America, a country with 70 million fewer people, 
incarcerates for nonviolent offenses.
    The 1.1 million nonviolent offenders we currently lock up 
represents five times the number of people held in India's entire 
prison system, even though its population is four times greater than 
the United States.
    As the number of individuals incarcerated for nonviolent offenses 
has steadily risen, African-Americans and Latinos have comprised a 
growing percentage of the overall number incarcerated. In the 1930s, 75 
percent of the people entering state and federal prison were white 
(roughly reflecting the demographics of the nation). Today, minority 
communities represent 70 percent of all new admissions--and more than 
half of all Americans behind bars.
    As I have stated, my legislation will ensure that in affording 
offenders a second chance to turn around their lives and contribute to 
society, ex-offenders are not too old to take advantage of a second 
chance to redeem themselves. My legislation will also relieve the some 
of the strain on federal, state, and local government budgets by 
reducing considerably government expenditures on warehousing prisoners.
    For these reasons, I commend to your attention H.R. 261, the 
``Federal Prison Bureau Nonviolent Offender Relief Act,'' and ask you 
to give this proposal due consideration.
    Chairman Schumer, Vice-Chairwoman Maloney, let me express again my 
appreciation to you and the members of the Joint Economic Committee for 
holding this hearing and allowing me to submit this statement.
    Thank you.
  

                                  <all>

</pre></body></html>
